<html>
<title> - DEFENDING AMERICAN AGRICULTURE AGAINST FOREIGN PESTS AND DISEASES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                AND THE

                            SUBCOMMITTEE ON
                   LIVESTOCK AND FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-46
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

  
  
          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
  
                                _________ 
                            
                     U.S. GOVERNMENT PUBLISHING OFFICE
 99-584 PDF                   WASHINGTON : 2016       
  
  
  
  


         


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                 ______

           Subcommittee on Livestock and Foreign Agriculture

                 DAVID ROUZER, North Carolina, Chairman

BOB GOODLATTE, Virginia              JIM COSTA, California, Ranking 
STEVE KING, Iowa                     Minority Member
SCOTT DesJARLAIS, Tennessee          STACEY E. PLASKETT, Virgin Islands
VICKY HARTZLER, Missouri             FILEMON VELA, Texas
TED S. YOHO, Florida                 RICHARD M. NOLAN, Minnesota
DAN NEWHOUSE, Washington             CHERI BUSTOS, Illinois
TRENT KELLY, Mississippi


                                  (ii)
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     6
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     5
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     2
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     3
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina, opening statement....................................     4
    Prepared statement...........................................     4

                               Witnesses

Shea, Kevin, Administrator, Animal and Plant Health Inspection 
  Service, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Osama El-Lissy, Deputy Administrator, Plant 
  Protection and Quarantine, APHIS, USDA; Jack Shere, D.V.M., 
  Ph.D., Acting Chief Veterinary Officer and Deputy 
  Administrator, Veterinary Services, APHIS, USDA................     7
    Prepared statement...........................................     9
Harriger, Kevin, Executive Director, Agriculture Programs and 
  Trade Liaison, Office of Field Operations, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security, 
  Washington, D.C.; accompanied by Kristi Currier, Agriculture 
  Specialist, CBP, DHS; Calan, Agriculture Products Detection 
  Canine, CBP, DHS...............................................    14
    Prepared statement...........................................    16
    Submitted questions..........................................    39

                           Submitted Material

Bissett, D.V.M., Ph.D., Wesley, Associate Professor and Director, 
  Texas A&M College of Veterinary Medicine & Biomedical Sciences 
  Veterinary Emergency Team, submitted statement.................    37

 
   DEFENDING AMERICAN AGRICULTURE AGAINST FOREIGN PESTS AND DISEASES

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                                     joint with the
         Subcommittee on Livestock and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to call, at 10:02 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Rodney 
Davis [Chairman of the Subcommittee on Biotechnology, 
Horticulture, and Research] presiding.
    Members present: Representatives Davis, Austin Scott of 
Georgia, Gibson, Denham, Yoho, Newhouse, Moolenaar, Rouzer 
(Chairman, Livestock and Foreign Agriculture Subcommittee), 
Hartzler, Kelly, Conaway (ex officio), DelBene, McGovern, 
Graham, Costa, Plaskett, Vela, Nolan, and Bustos.
    Staff present: John Goldberg, Mary Nowak, Patricia 
Straughn, Stephanie Addison, Keith Jones, Mary Knigge, Nicole 
Scott, and Carly Reedholm.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    Mr. Davis. This joint hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research, and the Subcommittee 
on Livestock and Foreign Agriculture, regarding defending 
American Agriculture against foreign pests and diseases, will 
come to order.
    Thank you all for being here today. I would like to begin 
our opening statements, and wish each of you a good morning. I 
had the chance to meet you before the hearing, so thank you 
again for being here.
    I am pleased to be here alongside my good friend and fellow 
Chairman, David Rouzer, the Chairman of the Subcommittee on 
Livestock and Foreign Agriculture, and I would like to thank 
him for this joint hearing in which we are going to highlight 
efforts to defend American agriculture against the introduction 
of foreign pests and diseases.
    This hearing is the third in a series of hearings through 
which the Committee has been examining the significance of 
agriculture to our nation's security.
    As Chairman of the Subcommittee on Biotechnology, 
Horticulture, and Research, it has been my honor to host 
hearings focusing on the extraordinary efforts of industry and 
academia that have led to the development, production, and 
marketing of an array of safe, wholesome, and affordable food. 
We have been blessed in this country with abundance, though we 
recognize that food insecurity is still a very real problem 
around the world and even within our own communities.
    My colleagues and I understand the continuing need for 
Federal policies that promote and facilitate global food 
security for the benefit of our own national security. A 
significant component of ensuring food security is the 
capability to defend agricultural enterprises against the 
persistent threat of pest and disease introductions. Whether 
pests and diseases are introduced intentionally or 
unintentionally, we need to have the systems in place to detect 
and respond rapidly so that we can effectively control and 
eradicate these threats.
    Through the Agricultural Quarantine Inspection Program, 
jointly operated by the USDA and DHS, we have the capacity for 
inspection, detection, and rapid response to pest and disease 
threats.
    Today, we will be examining this program and how our 
continued investment in such functions is critical to 
protecting animal and plant health. It is our hope that our 
colleagues outside this Committee understand the real threats 
we face, and why it is so important that we continue to 
strengthen our investment in our critical agricultural 
infrastructure.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Good morning. I am pleased to be here alongside my good friend, 
Representative David Rouzer, Chairman of the Subcommittee on Livestock 
and Foreign Agriculture, for this joint hearing in which we will 
highlight efforts to defend American agriculture against the 
introduction of foreign pests and diseases.
    This hearing is the third in a series of hearings through which the 
Committee has been examining the significance of agriculture to our 
nation's security.
    As Chairman of the Subcommittee on Biotechnology, Horticulture, and 
Research, it has been my honor to host hearings focusing on the 
extraordinary efforts of industry and academia that have led to the 
development, production, and marketing of an array of safe, wholesome 
and affordable food. We have been blessed in this country with 
abundance, though we recognize that food insecurity is still a very 
real problem around the world and within our own communities.
    My colleagues and I understand the continuing need for Federal 
policies that promote and facilitate global food security for the 
benefit of our own national security. A significant component of 
ensuring food security is the capability to defend agricultural 
enterprises against the persistent threat of pest and disease 
introductions.
    Whether pests and diseases are introduced intentionally or 
unintentionally, we need to have the systems in place to detect and 
respond rapidly so that we can effectively control and eradicate these 
threats.
    Through the Agricultural Quarantine Inspection Program, jointly 
operated by USDA and DHS, we have the capacity for inspection, 
detection and rapid response to pest and disease threats.
    Today, we will be examining this program and how our continued 
investment in such functions is critical to protecting animal and plant 
health.
    It is our hope that our colleagues outside this Committee 
understand the real threats we face and why it is so important that we 
continue to strengthen our investment in our critical agricultural 
infrastructure.
    It is now my pleasure to yield to my Subcommittee Ranking Member, 
Ms. DelBene.

    Mr. Davis. It is now my pleasure to yield to the Ranking 
Member of the Biotechnology, Horticulture, and Research 
Subcommittee, my good friend and colleague, Ms. DelBene.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman. And I want to thank 
both our Chairmen, Mr. Davis and Mr. Rouzer, for holding this 
joint hearing, and to all of our witnesses for being here with 
us today.
    Since the 1980s, the international trade of fruit and 
vegetables, or specialty crops, has been characterized by 
tremendous growth, driven by rising incomes and the expansion 
of the middle class worldwide. In the U.S., consumers are 
motivated to pursue an even healthier diet, and have pushed 
U.S. imports of fresh fruits and vegetables into remarkable 
rates of growth.
    Here are some examples: In Fiscal Year 2015, the USDA 
forecast that fresh fruit imports would reach $10.3 billion, 
8.9 percent higher than 2014, and 23 percent above Fiscal Year 
2013. And fresh vegetable imports were forecast at $7.1 billion 
in, seven percent above Fiscal Year 2014, and eight percent 
above Fiscal Year 2013.
    So while the local food movement continues to grow 
domestically, the fresh fruit and vegetable industry is rapidly 
globalizing.
    There is, however, a simple but potentially devastating 
problem in the increased demand for fresh fruits and 
vegetables. As globalization and imports increase, so do the 
risks to domestic producers from foreign pests. And one thing I 
have consistently heard from growers in my district is that it 
is vastly easier to lose business from overseas markets when it 
is perceived that the integrity of a product is compromised. 
That it is easier to lose that business than it is to gain new 
business.
    So, of course, most people don't think of agriculture in 
terms of national security, but they should.
    The consequences to our economy and even our health can be 
compromised greatly when a new pest or disease is introduced 
into the ecosystem. However, through research and cooperation 
amongst agencies, we can be prepared to meet the challenges to 
come, safeguarding our economy and supporting our local fruit 
and vegetable growers in the process.
    So thank you again to everyone for being here today.
    And with that, I yield back.
    Mr. Davis. Thank you, Ranking Member DelBene.
    This is a first for me to be able to co-chair a hearing 
with my good friend, who is usually sitting directly in front 
of me and hiding me from the witnesses. So to be side-by-side 
with Mr. Rouzer, I now know that his head doesn't look nearly 
as big as it does when it is in front of me.
    So I would like to yield to the Chairman of the Livestock 
and Foreign Agriculture Subcommittee, Mr. Rouzer.

  OPENING STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Rouzer. Thank you. Well, I guess thank you, Mr. 
Chairman. This is so I can keep a better eye on you, by the 
way. But thank you, nonetheless.
    As Chairman Davis mentioned, and others, this hearing is 
the third in a series of hearings highlighting the crucial 
intersection of agriculture and our national security. In our 
first hearing last November, the full Agriculture Committee 
heard from Ambassador John Negroponte and Dr. Tammy Beckam, 
Dean of the Kansas State University College of Veterinary 
Medicine, in broad testimony concerning the various threats to 
agricultural security, as well as the economic significance 
associated with such threats.
    In that first hearing, the Committee's focus was on how 
threats to global food security create instability among 
populations, and how this instability leads to violence and 
upheaval that ultimately threatens our own national security.
    This past month, I hosted the second hearing of this series 
where we discussed with representatives of academia and the 
livestock industry, the incredible amount of work done by 
Federal and state agencies and the private-sector to defend 
against foot-and-mouth disease. We also discussed what work 
still needs to be done to expand our capabilities to deal with 
this disease should it ever be introduced into our herds.
    Today, we are honored to be joined by representatives of 
USDA Animal and Plant Health Inspection Service, and the 
Department of Homeland Security's Customs and Border Protection 
Agriculture Program. Our objective is to take an in-depth look 
at Federal programs intended to defend against the introduction 
of diseases like foot-and-mouth disease, and what capabilities 
we have to prevent, control, and eradicate diseases should they 
be introduced.
    Now, we face tremendous pest and disease pressures, which 
are being effectively managed by the hardworking men and women 
of USDA and DHS. Congress has a role to play in ensuring that 
the agencies have the tools they need to do this important 
work, so it is important that we hear from those charged with 
implementing these key programs.
    I look forward to today's conversation.
    [The prepared statement of Mr. Rouzer follows:]

 Prepared Statement of Hon. David Rouzer, a Representative in Congress 
                          from North Carolina
    Thank you Chairman Davis.
    As my colleague has mentioned, this hearing is the third in a 
series of hearings highlighting the crucial intersection of agriculture 
and our national security. In our first hearing last November, the full 
Agriculture Committee heard from Ambassador John Negroponte and Dr. 
Tammy Beckam, Dean of the Kansas State University College of Veterinary 
Medicine, in broad testimony concerning the various threats to 
agricultural security, as well as the economic significance associated 
with such threats.
    In that first hearing, the Committee's focus was on how threats to 
global food security create instability among populations, and how this 
instability leads to violence and upheaval that ultimately threatens 
our own national security.
    This past month, I hosted the second hearing of this series where 
we discussed with representatives of academia and the livestock 
industry, the incredible amount of work done by Federal and state 
agencies and the private-sector to defend against foot-and-mouth 
disease. We also discussed what work still needs to be done to expand 
our capabilities to deal with this disease should it ever be introduced 
into our herds.
    Today we are honored to be joined by representatives of USDA's 
Animal and Plant Health Inspection Service, and the Department of 
Homeland Security's Customs and Border Protection Agriculture Program. 
Our objective is to take an in-depth look at Federal programs intended 
to defend against the introduction of diseases like foot-and-mouth 
disease, and what capabilities we have to prevent, control and 
eradicate diseases should they be introduced.
    We face tremendous pest and disease pressures, which are being 
effectively managed by the hardworking men and women of USDA and DHS. 
Congress has a role to play in ensuring that the agencies have the 
tools they need to do this important work, so it is important that we 
hear from those charged with implementing these key programs.
    I look forward to today's conversation, and now yield to the 
Ranking Member of my Subcommittee, Mr. Costa for any remarks he wishes 
to make.

    Mr. Rouzer. I now yield to the Ranking Member of my 
Subcommittee, Mr. Costa, for any remarks he wishes to make.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. Costa. Thank you very much, Chairmen, and the Ranking 
Member, and Members of both Subcommittees who are here this 
morning for a hearing that has a lot of importance for American 
agriculture throughout the country.
    I am not so sure who is in charge of the lighting here, but 
it seems to me we could shed a little more light, besides the 
subject matter, I am not so sure why it is as dark as it is, 
but maybe staff could do something about that, Mr. Chairmen.
    We are here to discuss the American preparedness to face 
the potential devastating impact that foreign pests and 
diseases have on American agriculture. That is helpful, thank 
you. That is shedding a little more light on things.
    Ms. DelBene. There you go.
    Mr. Costa. There you go. The witnesses that we have here 
today are from the Department's Animal and Plant Health 
Inspection Service, otherwise referred to as APHIS, and the 
United States Customs and Border Protection, which are very 
important. A group of us were down in Texas near the McAllen 
border and saw a lot of the good work that our Customs and 
Border Protection Service provide in terms of trying to monitor 
potential impacts of the migration of foreign pests and 
diseases that can impact our agricultural communities.
    I have a number of questions, which will be referred to the 
witnesses: Do we have, first, adequate safeguards in place? Do 
your agencies have adequate funding? Are there as robust 
monitoring programs in place to ensure that pests and diseases 
that do get through initial screening, which sometimes happens, 
don't have the ability to spread? California, with over 300 
commodities that we produce, we have had infestations that we 
have had to deal with repeatedly over the last 3 decades that I 
have been aware of as the former Chairman of the Senate 
Agriculture and Water Committee in California. This is not a 
new issue that we have had to contend with. And finally, even 
most recently in California again, we have the introduction of 
an additional citrus-related disease, and I would like to learn 
from the experts here what is their greatest fear as to what 
comes next, potentially what we need to be on the lookout for.
    I am especially excited to have the Agriculture Products 
Detection Canine Officer. I saw that canine when I walked in 
here. I don't know who is going to translate his or her 
testimony, but we are anxious to hear it. But truly, they play 
a role. We have an international operations in the Fresno 
Airport, where we have daily flights, and those canines do 
provide an important role in terms of monitoring and detection. 
So we appreciate that additional support.
    Earlier this month, as I said, I had in my office 
California's Agriculture Commissioners and Sealers speaking on 
the importance of the detection teams play, not only in 
Fresno's air terminals, but also air terminals at other ports 
of entry throughout the country. And while there are 14 canine 
detection teams in California, I am told that oftentimes it is 
inadequate, and there is a lack of funding to support those 14 
canine teams.
    Finally, the continued success and growth of our nation's 
agricultural industry is dependent on a host of factors, 
including our ability to protect animals and plants from pests 
and diseases. So I want to applaud APHIS for your work in 
advance, and the Customs and Border Protection Service for 
working to deal with daily threats that occur across our 
borders, whether it happens unintentionally or not, people who 
are just traveling back and forth sometimes bring fruits and 
vegetables from friends, or things that they saw at the 
supermarket that they wanted to bring home, and don't know that 
they are bringing larva and other potential pests that can and 
do create infestations.
    So thanks again, both Chairmen, for the two Subcommittees 
coming together and holding this hearing today. From a part of 
the country where we have had to deal with repeated 
infestations, from Medflies to fruit flies, to all sorts of 
other infestations, this is, I can tell you, an important 
hearing to protect American agriculture. So I look forward to 
the testimony.
    Thank you.
    Mr. Davis. Thank you to Mr. Costa.
    And we are proud to be joined today by the Chairman of the 
full House Agriculture Committee, who I would like to now 
recognize to give any statement he wishes.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, Mr. Chairman, Chairman, 
Ranking Member, Ranking Member. I appreciate the witnesses 
being here today.
    Americans enjoy the most affordable, most abundant, and the 
safest food and fiber supply of any developed nation in the 
world. They enjoy it in their pocketbooks, but they don't know 
why it happens. And the safest part of it is what you will hear 
from the witnesses today. I am excited about understanding the 
work that you do and the importance of protecting the safety of 
the food supply.
    National security and agriculture are linked at the hip, at 
the shoulder, and elbow. You can't have one without the other. 
President Bush said that the nation that can feed itself is 
more secure than a nation that can't. And so an integral part 
of that is the safety of the food, not only what is grown in 
the United States, but what is grown outside the United States 
and brought in. And the role that you and your agencies play in 
making sure that continues to be the safest in the world is 
important. I am looking forward to hearing from each of you.
    And with that, Mr. Chairman, Chairman, Ranking Member, 
Ranking Member, I yield back. Thank you.
    Mr. Davis. Thank you, Mr. Chairman, Chairman, Chairman.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure that there is ample time for 
questions.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were present at the start of the hearing. After that, 
Members will be recognized in order of their arrival. I 
appreciate Members' understanding.
    Witnesses are reminded to limit their oral presentations to 
5 minutes. All written statements will be included in the 
record. Over the course of today's hearing, following the 
testimony of the witnesses, everyone at the table will be able 
and will be available to answer any questions.
    And now I would like to again welcome our witnesses to the 
table.
    I would like to introduce Mr. Kevin Shea, the Administrator 
of the USDA, Animal and Plant Health Inspection Service, right 
here in Washington, D.C., and to give his opening statements. 
And I know he is accompanied today by Mr. Osama El-Lissy, 
Deputy Administrator, APHIS Plant Protection and Quarantine, 
and Dr. Jack Shere, Acting Chief Veterinarian Officer and 
Deputy Administrator, APHIS Veterinary Service.
    So, Mr. Shea, please go ahead.

STATEMENT OF KEVIN SHEA, ADMINISTRATOR, ANIMAL AND PLANT HEALTH 
INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
  D.C.; ACCOMPANIED BY OSAMA EL-LISSY, DEPUTY ADMINISTRATOR, 
                             PLANT
  PROTECTION AND QUARANTINE, APHIS, USDA; JACK SHERE, D.V.M., 
       Ph.D., ACTING CHIEF VETERINARY OFFICER AND DEPUTY 
        ADMINISTRATOR, VETERINARY SERVICES, APHIS, USDA

    Mr. Shea. Thank you, Mr. Chairman, Congresswoman DelBene, 
Congressman Costa, Chairman Conaway, and all Members. I 
appreciate this opportunity, and I very much appreciate that 
you are bringing light on this important issue for all 
Americans.
    Safeguarding against significant plant and animal pests and 
diseases is vital to protecting industry, producers, and 
consumers, and ensuring that we have a safe and secure food 
supply. It is a top priority for all of USDA. It is the top 
priority for us in APHIS. Simply put, it is why we exist, and 
the reason over 8,000 employees in APHIS go to work every day.
    The impact of pests and diseases on the U.S. economy can be 
staggering. For example, the outbreak of highly pathogenic 
avian influenza last year, which was the largest foreign animal 
disease outbreak in American history, cost taxpayers nearly $1 
billion, just in response, cleanup, and indemnity costs. And 
that doesn't include lost export markets or temporary 
shortages, or price increases for poultry and eggs.
    Our approach to safeguarding really runs along continuum, 
from overseas to every American farm and ranch, and every means 
of distribution. Our first goal always is to keep pests and 
diseases out of the country, and we think we have done a good 
job in that regard. But we can't guarantee those efforts will 
always succeed, so we have to be able to quickly detect any 
pests and diseases that do arrive, and quickly and efficiently 
control and eradicate those threats.
    While increased trade has helped American agriculture 
prosper, and provided more abundant food and products for all 
Americans, the sheer volume of traffic inevitably means that 
pests and diseases have more opportunities to hitch a ride, 
whether inadvertently or deliberately.
    Overseas, we work to exclude pests at their point of 
origin, long before shipments even reach our borders. We have 
APHIS employees stationed in more than 30 countries. They 
collect and analyze data on foreign pests and diseases to help 
us make better policy decisions here, such as where risk 
assessment should focus, and how we should modify our port of 
entry inspections. Our scientists conduct risk assessments that 
enable us to make informed decisions about the potential costs 
or risk of any pests or diseases that could come to the United 
States with any specific commodities. We only allow imports 
when we are convinced it is safe to do so.
    At ports of entry, we work with our CBP colleagues to 
inspect arriving passengers and cargo to find any pests or 
diseases or their host. We provide CBP direction on which pests 
and diseases to look for, and we advise them on pathways that 
pose the highest risk. Also, we train CBP agricultural 
inspector specialists on how to enforce our regulations.
    APHIS directly operates plant inspection stations for 
nursery stock and propagative plant materials. And we also 
inspect animals who cross the borders from Canada and Mexico. 
Domestically, we conduct surveillance to quickly detect any 
foreign pests and diseases that may have evaded our other 
safeguarding measures. Early pest detection is crucial to 
averting major damage.
    Last year alone, we conducted surveys for 118 high-risk 
plant pests, along with routine surveillance for foreign 
emerging and endemic diseases. Our laboratories develop, 
validate, and conduct diagnostic testing for plant and animal 
pathogens, and we have expanded capacity through our state 
partners and university partners in the National Plant 
Diagnostic Network and the National Animal Health Laboratory 
Network.
    Should a pest or disease arrive in this country, APHIS and 
our state, industry, and other Federal partners, work quickly 
to respond, as we did to high-path avian influenza last year. 
And I would add that 2015 was also a challenging year on the 
plant health and specialty crop side. We found more exotic 
fruit flies than we have in 20 years, with 12 outbreaks in 
California, Florida, Puerto Rico, and Texas. But the good news 
is that we did rapidly detect them, responded, and contained 
them. We have already eradicated ten of those, and another pest 
that we are on the verge of eradication is the European 
grapevine moth in California.
    I would like to mention two last things. First, this 
Committee has recognized in the last two farm bills the grave 
threat that plant pests and diseases pose to the safety and 
security of our food supply, and put in place the Plant Pest 
and Disease Management and Disaster Prevention Program, better 
known by its section number 10007, and that has greatly 
expanded our ability to detect, exclude, and respond to pest 
diseases.
    Over the last 3 years, we have funded over 2,600 projects.
    Last, I want to mention that one of the other major lessons 
we learned last year in the avian influenza outbreak is that 
our veterinary and animal health infrastructure had declined to 
the point we were not able to respond as quickly or as well as 
we would have needed to. I think we did a good job given what 
we had, but we know now we need to have more resources in 
animal health. And indeed, in our budget that is before the 
Appropriations Committee now, we have requested nearly a $30 
million increase, to put in place 80 more veterinarians and 
animal health technicians around the country for quick 
response.
    In conclusion, I want to assure you that APHIS understands 
that safeguarding against foreign plant and animal pests and 
diseases is our top priority, and we will continue to take that 
mission very, very seriously. After all, it is, indeed, the 
foundation of feeding and clothing America, and really the 
world, to have health agriculture.
    Thank you very much.
    [The prepared statement of Mr. Shea follows:]

   Prepared Statement of Kevin Shea, Administrator, Animal and Plant 
Health Inspection Service, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Chairmen Davis and Rouzer, Ranking Members DelBene and Costa, and 
Members of the Committee, I appreciate the opportunity to appear before 
you today to discuss the importance of ensuring that the United States 
is prepared to prevent, detect, and respond to threats to plant and 
animal health. I have with me today our Deputy Administrator for Plant 
Protection and Quarantine Mr. Osama El-Lissy and our Acting Deputy 
Administrator for Veterinary Services Dr. Jack Shere.
    As you well know, safeguarding against significant plant and animal 
pests and diseases--ranging from the European grapevine moth to foot 
and mouth disease--is vital to protecting industry, producers, and 
consumers, and ensuring that we have a safe and secure food supply. It 
remains a top priority for the U.S. Department of Agriculture (USDA), 
and is something we at the Animal and Plant Health Inspection Service 
(APHIS) are committed to every day.
    The impact of pests and diseases on the U.S. economy can be 
staggering. The outbreak of highly pathogenic avian influenza (HPAI) 
last year--which was the largest animal disease outbreak in U.S. 
history--cost U.S. taxpayers nearly $1 billion just in response, clean 
up, and indemnity costs. That didn't include lost export markets, 
temporary shortages, or price increases for certain poultry and their 
products. The Mediterranean fruit fly--known as the most destructive 
agricultural pest in the world--infests more than 300 varieties of 
fruits, vegetables, and nuts, including apple, bell pepper, grape, 
lemon, orange, peach, tomato and walnut. The gross value of just those 
eight commodities in California alone is more than $14 billion a year 
(USDA NASS, 2014).
    Pests and diseases can limit our ability to produce healthy and 
abundant crops and can shut off foreign markets for U.S. producers. 
They also highlight the importance of our ``One Health'' approach to 
coordinating efforts across the government to protect human and animal 
health. According to the Centers for Disease Control and Prevention 
(CDC), about 75 percent of recently emerging infectious diseases 
affecting humans originate in animals. And approximately 60 percent of 
all human pathogens are zoonotic. The work that APHIS and its partners 
undertake to protect U.S. agricultural health provides benefits far 
beyond the fields and farms.
    Threats to U.S. agricultural health can come from a number of 
places--hitchhiking pests imported on cargo or ships, a traveler 
bringing food from his or her homeland, a sick animal or pet being 
brought from overseas, or even nefarious attempts at agro-terrorism. 
Regardless of the intent, APHIS' focus is on putting in place 
preventive measures to keep pests and diseases out of the country, 
preparing for these threats, detecting them, and taking emergency 
action if necessary.
    APHIS has a wide breadth of expertise and over 40 years of 
experience in protecting U.S. agriculture from plant and animal pests 
and diseases. From our cadre of veterinarians to our plant 
pathologists, wildlife biologists, entomologists, epidemiologists, and 
microbiologists, we have a strong scientific infrastructure that 
informs our decision making and actions. The relationships we have 
built with our partners in this effort also serve to strengthen our 
protections against pests and diseases. We work closely with State 
Departments of Agriculture and Natural Resources, local governments, 
stakeholder groups, and Federal agencies including U.S. Customs and 
Border Protection (CBP).
    To protect America's agriculture and environment, APHIS and its 
partners maintain a comprehensive system of overlapping safeguards that 
operate overseas, at U.S. ports of entry, and within the United States 
to prevent foreign plant and animal pests and diseases from gaining a 
foothold in our country. Today, I will give you an overview of our 
efforts in each of these areas, as well as discuss some of our 
initiatives that further support these activities.
Overseas and Risk Mitigation Activities
    APHIS' work to safeguard the health and value of American 
agriculture begins by preventing harmful pests and diseases from 
entering the United States. This work starts overseas, in some cases in 
the field or on the farm. Our Plant Protection and Quarantine (PPQ), 
Veterinary Services (VS), and International Services (IS) programs work 
with foreign governments, agricultural producers, and shippers to 
produce healthier crops, exclude pests at their origin, and treat at-
risk commodities in the country of origin or on the high seas before 
shipments get near our shores.
    APHIS, with employees stationed in more than 30 countries, collects 
and analyzes data on foreign pests and diseases from around the world 
to detect potential trade pathways for accidentally transporting 
foreign invasive pests. This information helps us make better policy 
decisions, such as where risk assessments should focus, when to modify 
port of entry inspections, and what pests we should be surveying for at 
home.
    Our work to help our foreign counterparts build their own 
infrastructures and capacity to respond to emerging pest and disease 
conditions is another essential component of our safeguarding 
activities. Through our capacity building programs, we train plant and 
animal health officials from other countries in developing effective 
systems to identify and control pests and diseases locally.
    We also work closely with multilateral organizations throughout the 
world to promote effective disease surveillance overseas and gain 
access to information on agriculture health issues worldwide. These 
include international and regional groups such as the International 
Plant Protection Convention, the North American Plant Protection 
Organization, the World Animal Health Organization, the International 
Seed Testing Association, and the Codex Alimentarius Commission.
    Combined with our overseas efforts, APHIS' import regulations work 
to mitigate the risk posed by agricultural products long before they 
reach U.S. ports of entry. Before we will allow imports of a specific 
product from a specific region of the world, our scientists conduct a 
risk assessment that enables us to make informed decisions about the 
potential pest or disease risks associated with that specific 
commodity. Based on these assessments, APHIS will only allow imports if 
they can occur in a safe manner.
    APHIS also maintains strict, science-based import regulations for 
foreign agricultural products. We require import permits for a variety 
of imported agricultural commodities. As appropriate based on pest and/
or disease risk, we also require imports to be accompanied by official 
sanitary or phytosanitary certification indicating that any associated 
risk has been sufficiently mitigated. APHIS requires that certain 
approved plant products, such as bulbs from Holland, undergo and pass 
pre-clearance inspection in the country of origin before being shipped 
to the United States. USDA may also require that commodities undergo 
treatment--such as fumigation or dipping for cattle fever ticks--and/or 
mandatory quarantine prior to being allowed entry into the United 
States. As you can see, USDA's overseas and risk reduction activities 
play a critical role in helping to mitigate foreign pest and disease 
risks in the country of origin rather than in the United States.
At Ports of Entry
    Through its Agricultural Quarantine Inspection (AQI) program, APHIS 
works in tandem with CBP to address the risk of foreign pests and 
diseases entering the country at ports of entry, either through the 
movement of people or commodities. Under the Homeland Security Act of 
2002, USDA maintained responsibility for establishing the regulations, 
policies, and procedures that govern the import of agricultural 
products, and CBP became responsible for conducting the actual 
inspections at ports. APHIS directs CBP on what pests and diseases to 
look for and which pathways pose the highest risk, shares information 
on new and emerging pests and diseases, and trains CBP agricultural 
specialists in how to enforce our agricultural import regulations. CBP 
inspections target the highest-risk cargo, as well as travelers most 
likely to be carrying agricultural products. APHIS provides insect 
identification services to assist CBP officials in distinguishing 
common pests from pests of concern, and monitors the application of 
treatments that at-risk shipments must undergo at ports of entry before 
being allowed to enter American markets. We also station veterinarians 
at ports of entry to provide guidance on inspecting animal products to 
allow for safe entry.
    Importations of nursery stock and other propagative plant materials 
can serve as significant pathways for invasive pests and diseases. To 
reduce the risks associated with such imports, APHIS requires that 
certain imported plant materials enter the United States through one of 
its plant inspection stations, which are located at ports-of-entry 
throughout the country at major international airports and seaports, 
and at major crossings along the U.S.-Mexican border. APHIS specialists 
at these stations inspect shipments to ensure that imported plants and 
seeds do not contain pests and diseases of regulatory significance. In 
FY 2015, our inspectors cleared more than 19,000 imported shipments 
containing 1.5 billion plant units and over 700,000 kilograms of seeds. 
Through these inspections, they intercepted more than 800 reportable 
pests. In addition, the stations conducted more than 500 treatments 
remediating pests on more than 4.2 million plant units and more than 
350,000 kilograms of seed.
    On the animal side of things, APHIS operates Animal Import Centers 
for importations of animals and animal-derived materials to ensure that 
exotic animal diseases are not introduced into the United States. 
Animals that are susceptible to or are capable of carrying diseases or 
pests that could seriously endanger U.S. domestic livestock or poultry 
must be imported through a U.S. animal import center and are inspected, 
tested, and quarantined depending on the species and origin. APHIS also 
has border inspection facilities along the southern and northern U.S. 
borders for inspecting cattle and other livestock transiting from 
Mexico and Canada.
Inside the United States
    Expanding international trade is good for our farmers, our 
consumers, our economy, and the world. However, the increasing movement 
of people and goods means that foreign pest and disease introductions 
are a very real threat. Outbreaks can halt the movement of agricultural 
products, having serious economic impacts on farmers, growers, and 
exporters, and in the case of zoonotic disease, may affect humans.
    To counter this threat, APHIS' efforts to safeguard America's 
agriculture and environment continue inside the United States, so that 
we can quickly detect any foreign plant and animal pests and diseases 
that may have evaded our other safeguarding measures. Critical to this 
effort is the surveillance we and our state partners conduct throughout 
the country. Early pest detection is important to avert economic and 
environmental damage; once a pest or disease becomes established or 
spreads significantly, the mitigation costs can reach millions of 
dollars. This is in addition to lost farm revenues, damage to 
ecosystems, and loss of foreign markets.
    Our PPQ program, along with state cooperators, carries out plant 
pest surveys through the Cooperative Agricultural Pest Survey (CAPS) 
Program. CAPS targets high-risk hosts and commodities, gathers data 
about pests specific to a commodity, and provides accurate assessments 
of pest distribution, including pest-free areas for use in support of 
U.S. exports. In FY 2015, APHIS and cooperators conducted CAPS 259 
surveys in 50 states and three territories. The program targeted 118 
high-risk pests of national concern for survey in corn, small grains, 
soybean, nursery crops and other commodities, as well as exotic wood 
boring bark beetles and cyst nematodes, along with an additional 130 
pests of state concern.
    VS conducts routine surveillance for foreign, emerging, and endemic 
animal diseases, including bovine tuberculosis, foot-and-mouth disease, 
avian influenza, and scrapie, as well as for disease vectors such as 
the cattle fever tick. This surveillance is done through a number of 
surveillance streams, including testing at slaughter facilities, 
livestock markets, shows, sales, buying stations, on-farm, and at 
rendering facilities. As an example, in FY 2015, VS tested over two 
million cattle for brucellosis, over 40,000 sheep and goats for 
scrapie, and over 190,000 swine for Pseudorabies.
    Consistent with our One Health approach to animal diseases, our 
Wildlife Services (WS) program also monitors wildlife for diseases that 
could potentially spread to livestock or impact humans. Their 
longstanding efforts monitoring for highly pathogenic avian influenza 
(HPAI) in wild birds were highlighted during the disease outbreak in 
poultry farms last year. Since last July, they have sampled over 43,000 
wild birds in an enhanced surveillance effort, which can serve as an 
early warning system for HPAI in commercial poultry. Another important 
effort they undertake is disease testing of feral swine that they 
remove through the National Feral Swine Damage Management Program. In 
FY 2015, WS tested over 2,800 feral swine samples for five diseases of 
national concern, finding, for example, that 18% were positive for 
Pseudorabies, a disease that APHIS and U.S. industry eradicated from 
the domestic swine population in 2004.
    Laboratory and diagnostic services are essential components of the 
U.S. plant and animal health surveillance infrastructure. On the plant 
side, APHIS relies on its Center for Plant Health Science and 
Technology (CPHST), which develops, validates, and conducts diagnostic 
testing for plant pathogens, develops digital pest identification 
tools, and supports our pest management and eradication efforts. Our 
National Veterinary Services Laboratories (NVSL) serves as the only 
national reference and confirmatory laboratory for APHIS animal health 
programs, and participated in over 1,000 foreign animal disease 
investigations last year. To expand our capacity to detect and diagnose 
pests and diseases and ramp up during emergency situations, we also 
support the National Plant Diagnostic Network (NPDN) of 55 labs and the 
National Animal Health Laboratory Network (NAHLN) of 62 laboratories.
    We also recognize the risk posed by smuggled or improperly imported 
agricultural products and address this vulnerability through our 
smuggling interdiction and trade compliance (SITC) program. Our SITC 
program is responsible for intelligence gathering and other anti-
smuggling activities, such as secondary market and warehouse 
inspections, that help prevent animal and plant pests and diseases from 
entering the United States. When SITC personnel identify smuggled 
product, they not only remove it from the market but also conduct a 
full investigation to identify and eliminate any illegal pathways. SITC 
also conducts market surveys and trend analysis and uses various 
intelligence tools and data systems to track products that have entered 
through our borders. In FY 2015, APHIS seized over 230,000 pounds of 
prohibited and/or restricted plants and plant products and meat and 
meat products and an additional 65,000 pounds of recalled product.
Emergency Response
    In conjunction with our prevention and surveillance efforts, we 
acknowledge the absolute necessity of being able to respond swiftly and 
in a coordinated manner should a serious pest or disease be detected. 
APHIS has the authority and the ability to respond quickly and 
effectively to the identification of new pests and diseases. In 
addition, APHIS has specific emergency response guidelines for many of 
the pests and diseases that pose a significant threat to the United 
States. We've developed these response plans in conjunction with our 
Federal, state, and local partners, with whom we conduct exercises to 
test our preparedness. To ensure maximum speed and effectiveness, we 
have rapid response teams stationed around the country ready to travel 
to detection sites to coordinate Federal containment and eradication 
efforts. In such situations, our goal is to minimize impacts to U.S. 
producers and disruptions to trade.
    We have in place an incident command approach to emergency 
response. Incident command places teams of emergency personnel and 
managers directly in the field to coordinate response efforts. By 
virtue of their placement and size, the teams and their commanders have 
a high level of autonomy, are able to respond quickly to new or 
evolving situations, and can provide extremely timely information to 
decision makers. In addition, teams from various local, state, and 
Federal agencies all speak the same language when working an emergency 
and can tap into a wider network of resources. We saw this in January, 
when APHIS was able to quickly deploy an incident management team to 
Indiana at the first sign of disease, enabling the agency and the state 
to swiftly eradicate an outbreak of HPAI.
    In the event of an outbreak, the Secretary of Agriculture has 
emergency transfer authority under the Animal Health Protection Act and 
Plant Protection Act to obtain funding to combat a pest or disease, 
just as he did with the outbreak of HPAI last year. This can include 
funding for indemnity, to allow APHIS to compensate a producer if we 
must destroy his plants or animals as part of our response.
    Responding to HPAI in 2015 put to test all of our emergency 
preparedness and response infrastructure and plans. While we were 
successful in eradicating the disease, we learned a lot and continue to 
reflect on the lessons learned and take steps to improve our response. 
Further, of the more than 1,000 foreign animal disease investigations 
that we participated in last year, the vast majority turned out to be 
minor illness. This shows the vigilance, both within APHIS and with our 
partners in the states and industry, to quickly respond when there may 
be a potential threat to U.S. livestock health.
    [CY] 2015 was a very challenging year on the plant health side as 
well. We found more exotic fruit flies than we have in the past 20 
years, and we had 12 fruit fly outbreaks in California, Florida, Puerto 
Rico, and Texas, compared to four the year before. Thirteen other new 
significant pest and pathogen species were detected through our pest 
surveys or other reports, including Old world bollworm in Florida, 
which attacks crops valued annually in the United States at 
approximately $78 billion (Kriticos, et al., 2015). Old world bollworm 
can affect 180 species of wild and cultivated hosts including rice, 
sugarcane, tomatoes, potatoes, cotton, and beans. Despite the 
challenges to our plant health safeguarding system in 2015, the good 
news is that we are demonstrating through our cooperative efforts that 
we can rapidly detect, contain, and eradicate these pests. For example, 
we have already eradicated ten of the fruit fly outbreaks from 2015. We 
also anticipate being able to declare eradication of European grapevine 
moth in late 2016. Through the combined actions of APHIS' domestic 
fruit fly and pest surveillance and response programs, we are working 
to ensure that new and exotic plant pests do not establish in the 
United States, thereby protecting U.S. agriculture and the environment 
while keeping our export markets open.
Expanding Our Ability To Protect the United States
    Safeguarding U.S. agriculture and ensuring that we are prepared for 
any sanitary or phytosanitary threats against it is a huge undertaking, 
but it is one that we and our partners in the Federal, state, and local 
governments, industry, and stakeholders are fully committed to. I'd 
like to mention two other initiatives aimed at expanding our ability to 
be successful.
    In the 2008 Farm Bill, and again in the 2014 Farm Bill, Congress 
recognized the great role that pests and diseases of plants play in the 
safety and security of our food supply, and in making our U.S. 
agricultural economy and local communities prosperous. This Committee, 
along with your counterpart in the Senate, created the Plant Pest and 
Disease Management and Disaster Prevention program, which has proven 
quite a success in extending our ability to protect, detect, and 
respond to plant pests and diseases. Through this program, APHIS has 
funded more than 2,600 projects in 50 states and two U.S. territories 
since 2009, allowing cooperators across the country to put innovative 
ideas into action with farm bill funds. Projects have included enhanced 
molecular diagnostics for pests such as fruit flies. We have been able 
to extend the reach of our traditional CAPS surveillance each year, 
with an additional 80 taxon and commodity surveys supported in FY 2015. 
The farm bill also funds New Pest Response Guidelines, which serve to 
jumpstart preparation of site- or situation-specific action plans for 
high consequence plant pests and diseases so we can be prepared should 
they invade the United States. Other projects target domestic 
inspection activities such as detector dogs that can identify pests in 
mail facilities, as well as mitigations to help eradicate or contain 
pests. This program has been a true success, helping APHIS, the states, 
and stakeholders further protect U.S. agriculture.
    Second, I would like to mention our proposal in the FY 2017 
President's budget request to bolster our animal health readiness 
capacity. One of the biggest lessons we learned in responding to last 
year's HPAI outbreak was that we could build on the Agency's existing 
capacity to effectively address large animal health events. 
Unfortunately, our current funding level for animal health activities 
is below levels that were available to us 10 years ago, and APHIS has 
seen a reduction of more than 200 animal health professionals in that 
time. The need to rebuild our capacity is critical, and we have 
requested an additional $30 million to address this need. If provided 
by Congress, we will use most of the funds to hire veterinarians and 
animal health technicians to rebuild our field force and strengthen our 
ability to respond to animal health emergencies.
    In conclusion, APHIS' core mission is to protect the health of U.S. 
agriculture and we have a myriad of other programs and initiatives, all 
aimed at this vital cause. While I haven't mentioned every one of them 
today, I hope I have provided a broad overview of our goals and efforts 
in this area. I assure you that my agency, and USDA, are committed to 
doing all we can to protect U.S. plant, animal, and human health from 
the threats posed by pests and diseases. I'd be happy to answer any 
questions.

    Mr. Davis. Thank you, Administrator Shea.
    Now we are proud to be joined today by Mr. Kevin Harriger, 
the Executive Director of Agriculture Programs and Trade 
Liaison in the Office of Field Operations, with the U.S. 
Customs and Border Protection here in Washington, D.C. And Mr. 
Harriger is accompanied by Ms. Kristi Currier, an Agriculture 
Specialist at the CBP, and also hiding under the desk, 
Agriculture Products Detection Canine Calan, who is in Dulles, 
Virginia, on regular occasion. I know you might be going over 
your 5 minutes, and I want to let you know, sir, that that is 
completely fine, because you are going to give us a little bit 
of a demonstration during your opening testimony. And I would 
like to welcome you to offer that testimony.

        STATEMENT OF KEVIN HARRIGER, EXECUTIVE DIRECTOR,
    AGRICULTURE PROGRAMS AND TRADE LIAISON, OFFICE OF FIELD 
              OPERATIONS, U.S. CUSTOMS AND BORDER
 PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, 
              D.C.; ACCOMPANIED BY KRISTI CURRIER,
            AGRICULTURE SPECIALIST, CBP, DHS; CALAN,
        AGRICULTURE PRODUCTS DETECTION CANINE, CBP, DHS

    Mr. Harriger. Good morning. Thank you, Chairman Davis, 
Chairman Rouzer, Chairman Conaway, Ranking Members DelBene and 
Costa, and distinguished Members of the Committees. Thank you 
for the opportunity to testify today on the role of U.S. 
Customs and Border Protection in protecting our nations' 
agricultural security.
    When the Department of Homeland Security was created in 
2003, and the agricultural quarantine inspection mission at our 
ports of entry transitioned from USDA's Animal and Plant Health 
Inspection Service to CBP, I transferred along with it. 
Throughout my 34 years of service with CBP and the USDA, 
leading agricultural compliance, inspection, pest exclusion, 
and eradication programs, I learned firsthand the challenges 
and risks associated with securing our nation from agricultural 
threats, while simultaneously facilitating lawful travel and 
trade that is so critical to our economy.
    As the nation's unified border security agency, CBP 
continues to work closely with the USDA and other government 
and private-sector partners to protect the nation from a 
variety of diverse threats, including those posed by plant 
pests, biological agents, and foreign animal diseases arriving 
by air, land, and sea. Agricultural inspections have 
traditionally focused on the unintentional introduction of 
pests and diseases; those unnoticed and associated with 
someone's luggage, or hitchhiking on the floor of a container. 
With the added danger of agro-terrorism, that is, intentional 
introduction of pests, diseases, or biological agents, the role 
of the CBP's agriculture specialists at our ports of entry is 
more crucial than ever.
    CBP's Agricultural Quarantine Inspection Programs are a key 
component of our border security mission. CBP's more than 2,400 
highly trained CBP agriculture specialists, located at 
approximately 180 ports of entry, perform the complex function 
of determining the admissibility of agriculture commodities, 
and preventing the introduction of harmful pests, diseases, and 
potential agro-terrorism into the United States. CBP's multi-
layered agricultural security approach involves several key 
programs that increase CBP's awareness of what may be inside 
shipments or carried by travelers, and enhance our ability to 
assess whether it poses a risk to our natural resources.
    I would like to highlight just a few of those efforts for 
you today.
    First, many of the same analytical tools used in support of 
CBP's antiterrorism activities related to the movement of cargo 
and travelers are also used to target potentially harmful 
agricultural items that may be approaching our borders. To 
enhance agriculture targeting, CBP has developed the framework 
for a National Agriculture Cargo Targeting Unit that focuses 
solely on agricultural threats in all cargo pathways. This 
specialized unit creates a centralized national-level 
repository of agriculture intelligence, enabling efficient 
dissemination and information to local ports of entry for 
appropriate action.
    Second, in addition to our targeting capabilities, CBP 
deploys a variety of specialized detection technologies and 
resources. CBP's agriculture detection canines, for example, 
are a key operational asset when screening passengers, cargo, 
and conveyances, to prevent the introduction of prohibited 
agricultural materials that can harbor harmful plant pests and 
foreign animal diseases.
    And, Members, at this time, I would like to defer to CBP 
Agriculture Specialist Currier, and her trusty pal, to give a 
little demonstration on the efficiency and efficacy of our 
canine program.
    Ms. Currier. Good morning. I am U.S. Customs and Border 
Protection Agriculture Specialist Canine Handler Currier, 
working out of Dulles. My current canine has been with me for a 
little over 3 years. I don't know if you are aware of it, but 
our canines learn their odors in context, so he can easily be 
off duty and be a regular dog at some times, but when he is on 
that baggage floor, he is concentrating on passengers and their 
luggage.
    They start with five basic odors down in the training 
center, and throughout their life, we are continuing to add 
more odors to what is specific to the port that the dog is 
assigned to.
    Calan handles about 60 different odors, but he also 
generalizes, and that is one of the ways he builds his 
repertoire is, when he smells something that is sort of like 
one of his targets, he will see if he can get a response out of 
me by him doing his response, which is a basic quiet sit, and 
then if he gets rewarded for it, he adds it to his list. 
Beagles love food, so they are highly motivated by our reward 
system.
    Shall I?
    Mr. Harriger. Please.
    Ms. Currier. Okay.
    [Canine Demonstration.]
    Mr. Davis. Now, that was great. Let the record show the 
first hit on a contraband mango was with Chairman Conaway. So 
thank you both.
    Did you have any more testimony, Mr. Harriger?
    Mr. Harriger. Just one more, if I may, sir, for our 
closing.
    The third prong that we have, besides our detection and 
targeting, are our partnerships with APHIS and our Doctors 
Hospital of Stark partners, we form the basis to improve our 
information sharing, our targeting capabilities, and our 
ability to conduct special operations. Those partnerships also 
enhance our ability to conduct regulatory exams, interdict 
prohibited agricultural items, intercept plant pests, and 
perform compliance monitoring.
    CBP's agriculture quarantine inspection is a very critical 
component of our nation's border security mission. Committee 
Members, in delivering this program, we and CBP will continue 
to enhance our targeting and our detection capabilities, and in 
coordination with our partners, advance CBP's agricultural 
security efforts to protect our homeland, our natural 
resources, and protect the U.S. economy.
    In closing, Chairmen Davis and Rouzer, Ranking Members 
DelBene and Costa, and distinguished Members of the Committee, 
I really thank you for the opportunity to testify today. I look 
forward to answering your questions.
    Thank you, sir.
    [The prepared statement of Mr. Harriger follows:]

 Prepared Statement of Kevin Harriger, Executive Director, Agriculture 
 Programs and Trade Liaison, Office of Field Operations, U.S. Customs 
     and Border Protection, U.S. Department of Homeland Security, 
                            Washington, D.C.
    Chairmen Davis, Rouzer, Ranking Members DelBene, Costa, and 
distinguished Members of the Committee, it is an honor to appear before 
you today to discuss U.S. Customs and Border Protection's (CBP) role in 
agriculture security, a critical component of our national security 
that we preserve through collaboration with other Federal agencies and 
non-Federal stakeholders.
    When the Department of Homeland Security (DHS) was created in 2003, 
agricultural quarantine and inspection (AQI) duties relative to 
agricultural import and entry functions transitioned from the U.S. 
Department of Agriculture (USDA) Animal and Plant Health Inspection 
Service (APHIS) to CBP. As the lead DHS agency for border security, CBP 
continues to work closely with USDA, the Food and Drug Administration 
(FDA), and other domestic and international partners to protect the 
nation from a variety of evolving dynamic threats, including those 
posed by plant pests, biological threats, select agents, and foreign 
animal diseases, arriving at our air, land, and sea ports of entry 
(POEs). The introduction of a plant pest or foreign animal disease 
poses a very serious threat to U.S. agriculture and our natural 
resources. Furthermore, the potential economic impact is massive; 
according to the USDA Wildlife Services: Economic and Ecological 
Impacts of Invasive Species, 2000, invasive species cause an estimated 
$136 billion in lost agriculture revenue annually.
    Each year, CBP agriculture specialists intercept thousands of 
``actionable pests''--those identified through scientific risk 
assessment and study as being dangerous to the health and safety of 
U.S. agricultural resources. In Fiscal Year (FY) 2015, CBP agriculture 
specialists interdicted approximately 1.6 million prohibited plant 
materials, meat, and animal byproducts at POEs, while also intercepting 
more than 165,000 pests from entering the United States.
    When the agriculture inspection mission transitioned to CBP from 
APHIS, I transferred along with it. Throughout my 34 years of service 
with CBP and USDA, leading agricultural compliance and inspection and 
pest exclusion and eradication programs, I learned first-hand the 
challenges and risks involved with securing our nation from 
agricultural threats, while facilitating lawful travel and trade that 
is so critical to our economy. Today, I serve as the Executive Director 
of CBP's Office of Field Operations, Agriculture Programs and Trade 
Liaison (APTL) Office. We are responsible for safeguarding and 
protecting American agriculture from the risks associated with the 
entry, establishment, or spread of plant pests and pathogens, noxious 
weeds, and foreign animal diseases. We also provide leadership, 
expertise, and innovation to defend the United States from the threats 
of bio- and agro-terrorism.
    Agricultural inspections have traditionally focused on 
unintentional introduction of pests or diseases--those unnoticed in 
someone's luggage or hitchhiking on the floor of a container. With the 
added danger of agro-terrorism, that is, the intentional introduction 
of agro/biological agents, toxins, and plant pests or animal diseases, 
the role of the CBP agriculture specialists at our POEs is more crucial 
than ever. CBP's AQI programs are a key component of our border 
security mission. These programs utilize a risk-based strategy and 
multi-layered security approach that incorporates sophisticated 
targeting, collaboration with our Federal partners, and advanced 
detection capabilities.
Frontline Agriculture Security
    CBP's inspection and detection activities are conducted by a cadre 
of highly-trained CBP agriculture specialists (CBPAS). CBPAS use their 
science-based education, background, and expertise to apply a wide 
range of Federal, state, and local laws and agency regulations in the 
process of determining the admissibility of agriculture commodities 
while, at the same time, preventing the introduction of harmful pests, 
diseases, and potential agro-terrorism into the United States. CBPAS 
seize prohibited or infested agricultural items, which, if allowed to 
enter, could cause great harm to our nation's agricultural and natural 
resources. CBPAS also plan, conduct, and supervise remedial actions 
such as treating, disinfecting, and safeguarding prohibited or 
restricted agricultural commodities. Additionally, CBPAS provide 
scientific and technical expertise on pathways of entry with a focus on 
threat analysis, interdiction, and intelligence-driven targeting for 
preventing the entry of prohibited agricultural products and agents of 
agricultural and biological terrorisms into the United States through 
POEs.
    Most CBPAS have a bachelor's or higher degree in the sciences, such 
as botany, entomology, plant pathology, agriculture, biology or a 
related field. Once on board, the current CBPAS Basic Academy 
curriculum is 51 days long, and consists of USDA quarantine 
regulations, a scientifically oriented curriculum for plant pest 
identification, as well as a CBP law enforcement oriented curriculum. 
This comprehensive training, provided by USDA and CBP, prepares our 
CBPAS to effectively conduct inspectional and regulatory activities for 
our AQI operations. Our CBPAS also receive up to 18 weeks of port-
specific post academy training.
    When agriculture operations transitioned to CBP in 2003, 
approximately 1,565 Plant Protection and Quarantine (PPQ) Officers from 
approximately 135 POEs came on board from the USDA. Today, CBP has 
deployed more than 2,400 CBP agriculture specialists at approximately 
182 POEs. Additionally, CBPAS are present at specific Preclearance 
stations outside of the United States, effectively pushing our border 
security protective measures outward and mitigating foreign animal 
disease and plant pest risk to trade and travelers prior to entry into 
the United States. At ports where we do not have CBP agriculture 
specialists, CBP officers are cross-trained to detect agriculture items 
of interest.
    Agriculture security threats exist nationwide, across all modes--
air, land, and sea--and in both the trade and travel environments. In 
the trade environment, each year, CBP processes nearly 30 million cargo 
containers that arrive by ship, plane, truck, and train at our POEs 
across the country. CBPAS use automated systems to place holds on 
targeted shipments and conveyances and work with specialized x-ray 
machines that detect organic materials. They check containers and 
trucks for smuggled agricultural products or packaging materials, such 
as wooden pallets that might contain invasive species that could harm 
our agriculture and environment. In a similar capacity, at 
international mail and express consignment (ECO) facilities, CBPAS 
screen shipments for the presence of infested or prohibited 
agricultural materials.
    In the travel environment--air, land, and sea--CBP processes more 
than 360 million passengers each year. We also inspect commercially 
imported products, as well as modes of transportation, such as 
aircraft, cargo ships, open railcars and trucks. This is because 
agriculture threats in the travel environment include prohibited plant 
and animal products and by-products that are either intentionally or 
unintentionally packed in a passenger's baggage or vehicle. CBP 
agriculture specialists enforce USDA regulations and conduct 
agriculture quarantine inspections related to those travelers and their 
accompanying baggage. Agricultural canines specifically trained to 
detect meat and plant materials are an additional invaluable screening 
asset for international passenger pathways.
Efforts To Secure America from Agriculture Threats
    In both the travel and trade environments, and across all modes, 
CBP's multi-layered approach to agriculture security necessitates a 
comprehensive awareness of threats, substantial information sharing and 
coordination, and advanced detection capabilities. Our targeting 
activities, Federal partnerships, and advanced detection capabilities 
increase CBP's awareness of what may be inside shipments or carried by 
travelers and enhance our ability to assess whether it poses a risk to 
the American people. CBP uses pest alerts and foreign animal disease 
notifications from the Animal and Plant Health Inspection Service; 
agriculture quarantine inspection data; intelligence; and advanced 
information to identify high risk shipments to support agriculture port 
operations across all environments and conveyances.
Targeting Capabilities
    Many of the same analysis tools used in support of CBP's anti-
terrorism activities related to the movement of cargo and travelers are 
also used to target potentially harmful agricultural items that may be 
approaching our borders in a shipment or with an individual traveler. 
For example, analysts at the National Targeting Center (NTC) use the 
Automated Targeting System (ATS) to proactively analyze advance 
passenger and cargo information before departure from foreign ports. 
This critical decision support tool assists CBP officers and CBPAS in 
identifying shipments or travelers that warrant a more comprehensive 
screening or inspection upon arrival at a POE. Furthermore, at the CBP 
Commercial Targeting and Analysis Center (CTAC), CBP and our Federal 
partner agencies combine resources, leverage expertise and 
capabilities, and share information to identify potentially unsafe 
imported products, target potentially high-risk shipments, and reduce 
redundant inspection activities.\1\
---------------------------------------------------------------------------
    \1\ Commercial Targeting and Analysis Center Partner Agencies 
include Animal Plant Health Inspection Service, Fish and Wildlife 
Service, Food Safety Inspection Service, Food and Drug Administration, 
Consumer Product Safety Commission, Environmental Protection Agency, 
Immigration and Customs Enforcement, National Highway Traffic Safety 
Administration, National Marine Fisheries Services, and Pipeline and 
Hazardous Materials Safety Administration.
---------------------------------------------------------------------------
    To enhance agriculture targeting, CBP developed the framework for a 
National Agriculture Cargo Targeting Unit (NACTU) at the NTC. This new 
agriculture unit focuses solely on agriculture threats to identify 
potential and repeat violators that may import shipments with pests, 
prohibited products, contaminants, or smuggled products in all cargo 
pathways (rail, air, sea, land, ECO). NACTU serves as a conduit to 
house agriculture intelligence at a national level and enables 
dissemination of information to local ports. Flagging high-risk 
shipments in a time sensitive manner and comprehensive entity research 
enables the local ports to save time and facilitates trade by removing 
the focus from low risk and compliant agricultural items.
    CBP's targeting capabilities and programs are critical aspects of 
CBP's ability to effectively and efficiently identify potentially high-
risk shipments or travelers and intercept agricultural threats before 
they arrive at a POE.
Detection Capabilities
    In addition to our targeting capabilities, CBP deploys a cadre of 
specialized technology, and other resources to screen passengers and 
cargo to prevent the introduction of harmful plant pests and foreign 
animal diseases in the United States.
    CBP's agriculture canines are among our most effective assets 
within our AQI program, and we continue to expand this valuable 
resource. In 2003, when USDA transferred PPQ Officers to CBP, 
approximately 74 canine teams were included. Today, about 118 CBP 
agriculture canine teams provide screening at the border crossings, 
Preclearance locations, air passenger terminals, cruise terminals, 
cargo warehouses, and mail facilities that process international 
passengers and commodities.
    CBP's agriculture detector dogs are a key operational component 
when screening passenger baggage and cargo to prevent the introduction 
of harmful plant pests and foreign animal disease from entering the 
United States. A trained agriculture canine (beagle, beagle mixes or 
Labrador retrievers) can scan a piece of luggage or cargo for hidden or 
forgotten fruits and meats in mere seconds, thereby saving time and 
resources for the ports to detect prohibited agricultural products 
through x-ray or physical inspections. CBP agriculture canine teams 
operate in airports, seaports, mail and express consignment facilities, 
and at border POEs detecting agriculture products.
    All CBP agriculture specialist canine handlers and their canine 
partners complete the initial 10-13 week CBP Agriculture Specialist 
Canine Training at the USDA National Detector Dog Training Center 
(NDDTC). All the detector dogs at the NDDTC are adopted from rescue 
shelters in the United States or come to the program from private 
donations.
    CBP is also making great use of technology to transform business 
processes. CBP is expanding the Enforcement Link Mobile Operations--
Cargo (ELMOc) program by deploying mobile devices to CBPAS in all 
environments (air, land and sea border ports). CBPAS will have remote 
access available at their workstation, allowing them to close out exams 
without having to return to ports (real-time release). This facilitates 
trade with quicker release of cargo and increases the speed-to-market 
value (delivering containers hours to a day earlier). This is a mobile 
solution to better facilitate mission critical operations and address 
the needs of CBPAS to perform inspections of cargo without being bound 
to a physical location.
Collaboration with Government Partners
    CBP's targeting programs and detection capabilities are further 
strengthened by our extensive partnerships with other Federal agencies 
and industry stakeholders. CBP enforces laws on behalf of 47 Federal 
entities. We work closely with our DHS partners, as well as other 
Federal agencies such as APHIS, FDA, and the Food Safety and Inspection 
Service (FSIS). We collaborate with the Centers for Disease Control and 
Prevention, and the U.S. Fish and Wildlife Service (FWS).
    CBP's agricultural security activities are supported through a 
close partnership with APHIS. APHIS establishes agriculture rules, 
regulations, policies, and training based on pest risk assessments and 
market access programs. CBP, in turn, implements internal policies to 
operationalize those regulations. This includes how CBPAS will identify 
shipments for exams and what safeguards to institute in response to 
pest detection.
    APHIS also collaborates with CBP to develop trade facilitation 
programs, such as the National Agriculture Release Program (NARP). NARP 
was developed to identify those agriculture commodities that are 
imported in very high volumes, but have been determined to be very low 
risk for introducing potentially harmful plant pests and diseases. Once 
these commodities are included into the program, they are inspected at 
lower rates, freeing-up CBP resources to focus on high risk 
commodities. If at any point the number of serious agriculture pest 
interceptions on a commodity is deemed unacceptable, that commodity 
will be removed from NARP.
APTL Programs and Private-Sector Engagement
    CBP's mitigation strategy of agricultural security threats involves 
training, outreach, and partnerships with industry. APTL maintains a 
number of robust pest exclusion programs centered on some of the most 
devastating pests, which include the Asian Gypsy moth (AGM) and the 
Khapra beetle (KB), and risks associated with pests in wood packaging 
material (WPM) as well as other contaminants.
    AGM is a very serious forest pest that can hitchhike on the 
superstructure of vessels and cargo, feeds on more than 500 plant 
species, and can fly up to 25 miles a day, dispersing eggs across vast 
interior woodlands, causing economic and environmental damage due to 
loss of trees, plants and the costs to trap, contain, and eradicate the 
population. Native to India, the KB is one of the world's most 
destructive stored-product pests and is considered one of the top 100 
worst invasive species worldwide. Infestations can result in 30 percent 
(up to 70 percent) grain damage, making the products unpalatable and 
unmarketable and restricting export of U.S. grain, cereal products, and 
seeds. WPM poses a high risk for the introduction of serious exotic 
pests of trees. International standards,\2\ as defined by the 
International Standards for Phytosanitary Measures ISPM 15, dictate 
that WPM must be treated to eliminate the pest risk before it is used 
for international shipments. There are also potential threats from 
contaminants (soil, plant debris, hay, straw, grass). Conveyance 
contamination provides a pathway for invasive species into the United 
States which can cause serious harm to crops and livestock. Invasive 
species are expensive to control and can reduce agricultural 
production, property values, and water availability.
---------------------------------------------------------------------------
    \2\ 7 CFR  319.40
---------------------------------------------------------------------------
    CBP continues to expand its knowledge of harmful pest behavior, 
habits, pathways, and host materials and provides regular training, 
conducted or endorsed by APHIS, to CBPAS and CBP Officers on methods to 
detect and prevent the introduction of pests. Our efforts also include 
conducting outreach with the trade community to promote best practices. 
For example, CBP incorporates outreach as part of our WPM program. This 
outreach is designed to open lines of communication with trade and 
transportation communities and leverage their support for utilizing 
compliant WPM and sound agricultural safeguarding measures. APTL 
collaborates with CBP Attaches; Centers for Excellence and Expertise 
(CEE)--specifically, the Agriculture and Prepared Products CEE in 
Miami, Florida--the Customs-Trade Partnership Against Terrorism (C-
TPAT); and the Advisory Committee on Commercial Operations of Customs 
and Border Protection (COAC) to educate industry about the agricultural 
risks associated with hitchhiking pests and contaminants such as AGM, 
Federal noxious weeds, plant parts, and soil.
    CBP uses every opportunity to help industry associate the impact of 
contaminants to their business processes, including providing 
information to industry to ensure that their conveyances are cleaned 
prior to loading cargo destined to the United States. When trade 
minimizes carrier contaminants, they also reduce delays in the cargo 
release cycle and decrease shipping expenses for quarantined containers 
that must be cleaned or treated.
Operation Effectiveness
    CBP agriculture specialists continue detecting and sharing best-
practices to prevent introduction of harmful pests into the United 
States where millions of dollars in forest resources are at stake. With 
the growth of our APTL programs, CBP is aggressively seeking 
opportunities to enhance our efforts to detect and interdict these 
agricultural security threats. For example, CBP intercepted AGM in 76 
instances in 2014. This was a record year for CBPAS with regard to 
confirmed AGM interceptions.
    We have also expanded our KB pest exclusion through the development 
of a KB detection training program for agriculture specialists and CBP 
officers. As a result, KB interceptions soared from 2007 to 2012; so 
much so that APHIS implemented two Federal orders increasing import 
requirements for some KB host materials. CBP, in cooperation with USDA, 
develops additional pest exclusion training programs for its CBPAS and 
CBP officers as new threats and risks for U.S. agriculture are 
identified. APTL measures and attributes the success of increased KB 
interceptions to KB training performed by APTL beginning in 2009: 1,971 
of CBPAS were trained in KB detection, identification, safeguarding, 
and destruction. Following this training, two Federal orders were 
distributed to the field offices that increased import requirements for 
KB host materials. Since the implementation of this training program in 
2009, interception of KB are almost 12 times higher (14 in 2009, 162 in 
2015).
Conclusion
    CBP's agricultural program is a critical component of our nation's 
effort to protect agricultural products from plant pests and foreign 
animal diseases. In coordination with our partners, CBP's agriculture 
security efforts facilitate legitimate trade and travel while 
protecting our Homeland, natural resources, and the U.S. economy.
    Chairman Davis and Chairman Rouzer, Ranking Members DelBene and 
Costa, and distinguished Members of the Committee, thank you for the 
opportunity to testify today. I look forward to your questions.

    Mr. Davis. Thank you, Mr. Harriger.
    Now we are going to go into the question and answer 
session. I will start with one question and then let my 
colleagues begin to ask questions too.
    And, Mr. Harriger, I mean we really do appreciate you being 
here today, but you have truly been upstaged by Calan and 
Officer Currier today. I can tell you, I didn't realize that 
you couldn't bring beef jerky into the country. So that was 
something that I learned today.
    Can I ask Officer Currier a quick question about Officer 
Calan?
    Mr. Harriger. Yes, sir.
    Mr. Davis. Is that okay?
    Mr. Harriger. Please.
    Mr. Davis. I don't wish to put you on the spot, Officer 
Currier, first of all, it would be rude for us not to thank you 
for your service and the way that you have brought an animal 
like Officer Calan to be able to do the things that he is 
doing, and I enjoyed you letting me break protocol today and 
pet him. I know if I see you at a port of entry, I will not do 
that again. But I really appreciate you protecting American 
agriculture. And we know the Beagle Brigade has many, many 
success stories, and could you share just a couple of your 
experiences with your successes with the Beagle Brigade and 
Officer Calan?
    Ms. Currier. Is it working? Yes. Every day is an 
experience. You never know, it is like opening surprise 
packages every time you open a suitcase, and some of the 
strangest things come out. Passengers are coming from all over 
the world, every kind of country, and they want to bring their 
food with them. They want to bring their special food with 
them. Sometimes we open it up and we find something like the 
charred monkey meat, where it was being brought in for a 
wedding. And, of course, with primates, we have to worry about 
diseases that we ourselves could get, including Ebola, from 
monkey meat.
    A lot of strange meat. I have a photo here of a fetus of a 
little llama that was brought in, and it was supposed to 
protect somebody's new home that they were going to by plant by 
digging a hole and putting it in the yard of the home, and they 
didn't think there was anything wrong with this. But again, we 
work together with Fish and Wildlife, and we take a lot of 
things that they are looking for that they have no opportunity 
to come across themselves in passenger baggage.
    Mr. Davis. Thank you, Officer Currier. And very 
interesting. I would have never thought of the llama story, but 
I can image that you get something new every day.
    And I would like to ask you for a bag of those meat treats, 
because if they work so well for Officer Calan, they might work 
in getting us to vote for certain things out here too.
    Ms. Currier. I don't know.
    Mr. Davis. You don't think so? Okay. We will take the beef 
jerky instead.
    I am going to yield back the balance of my time, because I 
can ask some questions later, and get to the rest of my 
colleagues here.
    I would like to yield to the Ranking Member, Ms. DelBene, 
for her questions.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks again for 
all of you for being here.
    Director Harriger, you talked about specialized 
technologies, and it is my understanding that a majority of the 
inspections and interceptions that are done utilize microscopes 
and hand lenses. And so I wondered what types of new 
technologies would be helpful for you as you try to become more 
efficient at these interceptions and identifications?
    Mr. Harriger. Well, thank you, Congresswoman. So we use 
non-intrusive inspection also in our layered approach for 
things entering the United States, when the commodities and 
passengers are entering the United States. We have some very 
high-end x-ray technology that we are able to discern whether 
there are organics, for instance, and we need to take a look at 
it. So the computer and the technology in there actually 
assists us in validating that it is something we do want to 
look at, including biologics, diagnostics, reagents, and other 
things that may be controlled by Veterinary Services.
    Prior to the arrival, we use, in our targeting arena, again 
looking at that layered approach, all the advanced information 
provided by the passengers, the airlines, and the vessels and 
the crew coming in, that they can look and discern what that 
risk is as well, looking at their prior history, looking at the 
country commodity matrix, whether or not there is a disease 
outbreak, for instance, in that part of the world. Factoring 
all these in to make the decision as to whether or not we want 
to take a look at that.
    In the passenger environment, we seize a lot of 
commodities. We seized 1.6 million quarantined materials last 
year. That is one leg, one piece of beef jerky, or a dozen 
oranges would all count as one. That is in the passenger 
environment.
    In the cargo environment, we don't concentrate so much on 
the quarantine materials as we do as conducting the exams on 
behalf of APHIS to find any plant pests, and ensure that it is 
free of those.
    When we extract the pest to pass that over to APHIS, we do 
have some high-tech biological equipment, some microscopes and 
such, and we only take the identification of that pest so far, 
and then we pass that identification over to APHIS. Our job is 
to filter it down to see, yes, this is something we definitely 
want APHIS to look at, and then they have the specialty and the 
experts over there, the entomologists and plant pathologists, 
that will discern that, yes, this is Asian citrus psyllid or it 
is a fruit fly, or a pest of concern.
    Ms. DelBene. So are there particular technologies that you 
are lacking right now that you think would be really helpful in 
doing the job that you are doing today, or do you feel like you 
have sufficient resources with respect to being able to 
identify potential threats when they come in?
    Mr. Harriger. I believe we have a vast array of resources, 
including when we are cutting into wood packaging material, our 
sawzall and all the mechanical parts, we piggyback on some of 
the assets that our enforcement side has to tear into cargo and 
stuff, without disrupting the flow of the trade there. But I 
believe we are doing quite well in that area. Thank you, ma'am.
    Ms. DelBene. One of the things that we have talked about is 
how important interagency cooperation is to responding, and I 
wondered if both you and Mr. Shea might be able to give us an 
example of maybe a particular situation, the collaboration that 
took place not only between your two organizations, but also 
maybe with state organizations in terms of response, and how 
that works.
    Mr. Harriger. We are piggybacking on APHIS' interaction, 
plant protection and quarantine side with the plant protection, 
being the national plant protection organization with the 
National Plant Board. And there are four regional Plant Boards, 
and we were invited by APHIS around 2008 to start attending 
those regional meetings and the national meeting. That is 
probably one of the most keynote things is being able to get up 
there with Mr. Osama El-Lissy's staff and talk about what we 
are interdicting at the port of entries.
    We created an Agricultural Quarantine Inspection 
Partnership Committee that Mr. Shea was instrumental in 
launching with our former Commissioner Basham back in around 
2008 and 2009, which brought in the State Departments of 
Agriculture, their representative, two State Departments of 
Agriculture, the members from the State Plant Regulatory 
Official, as well as the veterinarians, to focus on what are 
the issues that the states have that CBP can bring to the table 
from an interdiction standpoint at the port of entry, webbing 
together also what APHIS has and provides in the regulatory 
arena.
    Mr. Shea. If I could add just one thing. Of specific 
interest to the Pacific Northwest, we have been partnering with 
CBP to inspect ships while they are still in the water for 
signs of Asian gypsy moth.
    Ms. DelBene. Yes.
    Mr. Shea. I am sure you are aware, we are dealing with some 
pretty severe Asian gypsy moth and European gypsy moth issues 
in Oregon and Washington now. But by partnering with CBP to 
look at these ships before they even reach the port, we have a 
much better chance of preventing more of them from getting in.
    Ms. DelBene. Thank you. Thank you both.
    And I yield back, Mr. Chairman.
    Mr. Davis. Thank you, Ms. DelBene.
    Chairman Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Shea, my first couple of questions are for you. 
Obviously, you have touched on this some in your testimony, but 
what programs have you found to be most helpful in combating 
pest and disease outbreaks?
    Mr. Shea. The programs that are most helpful and have 
worked the best are when we have a great collaboration with the 
industry and the states.
    We approach things at APHIS maybe a little differently than 
some agencies that are more regulatory in nature. We believe 
pretty firmly that agriculture needs to be profitable if it is 
going to contribute to American life, and indeed, for our food 
security. And we want to make sure that what we are doing isn't 
worse, that the cure isn't worse than the pest and disease 
sometimes. So the most effective programs are where we have 
everyone involved, and everyone has skin in the game, so to 
speak. And a really good example of this is the European 
Grapevine Moth Program in California, which threatens wine 
crops throughout the state. We worked with the state government 
and with producers themselves to eradicate that pest, and we 
are on the verge of doing it now. We did that with some APHIS 
money, a little bit of money from California State Government, 
and the producers themselves actually spraying their crops to 
knock this moth down. This program has been in place for about 
4 years. Chile found the same pest at the same time. They are 
detecting millions of moths now. We are detecting none in 
California, and expect to announce eradication later this 
summer. So that is a program that really works well.
    Another example that worked very well was the response to 
avian influenza in Indiana. The State of Indiana was very well 
prepared, the industry was well prepared, and we were able to 
quickly knock out the latest avian influenza issue.
    Mr. Rouzer. Thank you very much.
    Pursuing that a little further, as you probably know, the 
livestock community is now interested in pursuing the creation 
of a program similar to that which we put in place with the 
2008 Farm Bill under the Animal Health Protection Act. Do you 
see a benefit to this approach in protecting animal health as 
well?
    Mr. Shea. I see great benefit to it. What we have been able 
to do with the section 10007 money on the plant side is to have 
more surveys, so we find pests and diseases faster. We have 
more access to funding to quickly respond to outbreaks so we 
can knock them down before they get bigger. That is another 
important thing. We also have been able to provide funding to 
states, Mr. Costa mentioned earlier talking with the California 
County Commissioners, we provided money to them as well for dog 
detector teams, just like you saw in the demonstration today.
    So the section 10007 programs were very effective in that 
regard on the plant side, particularly for specialty crops. And 
I certainly think that the animal side could benefit as well 
from a secure, continuous source of funding, because as I 
mentioned earlier, we have a lot fewer veterinarians and animal 
health technicians today than we did 5 years ago. And indeed, 
over the course of 6 years, we lost a cumulative total of 
nearly $\1/2\ billion in appropriations. So we have had to make 
do with that. And constant funding in a farm bill provision 
like section 10007 for the animal health side could be very 
helpful.
    Mr. Rouzer. Thank you very much.
    Mr. Harriger, the next question is for you. We have 300 
ports of entry into the U.S. Can you please share some of the 
efforts underway and tools used by your department to secure 
our food supply? Obviously, we heard a little bit of that 
already, but if you could put some of those in bullet form for 
us for the record, that would be most appreciated.
    Mr. Harriger. Yes, sir. So we take a layered approach in 
the similar way we do with a lot of our antiterrorism, from 
doing pre-arrival analysis before the commodity or the 
passengers even enter the United States, we can sift through 
and determine with pretty good certainty what types of product 
and what kinds of baggage is accompanying people we want to 
take a look at. And that is the first cut on it is the 
targeting approach.
    When the commodities or people actually go through 
admissibility and come through into the passenger arena, we 
have our canines that are used almost exclusively in our 
international airports. One of our most effective tools. We 
have 118 teams across the United States; 88 of which are the 
beagles used solely in the air passenger environment. A little 
bit in the airmail facility. And then we have 30 teams that are 
the large breed that work in cargo, and also work on the 
borders, the northern and southern borders.
    We train our agriculture specialists in a wide array of 
detection techniques and smuggling modalities. We piggyback, as 
I mentioned earlier, on what the CBP officer enforcement side 
and how they are trained in looking for types and kinds of 
commodities, secreting smuggled products into conveyances or 
cars or tires, or that sort of thing. The smuggling community 
is interested in bringing that commodity in, in the same manner 
they are with other things for nefarious duties. So with a 
combined approach from those three angles. Yes, sir.
    Mr. Rouzer. Thank you very much.
    My time has expired.
    Mr. Davis. Thank you, Chairman Rouzer.
    I would now like to recognize our colleague from the great 
State of Florida, Ms. Graham, for her questions.
    Ms. Graham. Thank you, Mr. Chairman, I appreciate it. And I 
thank you to all the witnesses, and to Calan, who is asleep. 
Gosh, I have a puppy. If only Calan could give my puppy some 
advice.
    Again, thank you. I am from Florida, and so you probably 
can guess what my question is going to be about. Our state has 
been devastated by citrus greening, which is an example of an 
infestation that has such a significant impact on the economy 
of Florida. And it is spreading now. I mean it is spreading, it 
is in Texas, it is in California. So I would appreciate an 
update on what we are doing to address this threat, from Mr. 
Shea or anyone else who would like to speak to the question.
    Mr. Shea. Indeed, citrus greening has been devastating to 
Florida, and we are doing everything we can to work with the 
state and the industry to make things better. The Secretary 
directed that we put an emergency action group in place a few 
years ago, and we have come up with some tools to help in the 
short-run. There are really two prongs going on here. One is a 
long-run research program into maybe finding resistant 
varieties of tress to plant. The second is short-run, because 
as the citrus folks in Florida told me, they need help right 
now. They can't wait for a research program.
    And so we have invested money over the last several years 
in several things. One is antimicrobials, a foliar spray of 
antimicrobials applied at a certain time can indeed knock the 
disease down in trees. And there are experiments going on now 
in Florida that seem to prove that.
    Another example of something that might work is 
thermotherapy; literally heating the tree up to a certain 
temperature seems to kill the disease, or at least make it 
dormant for some time. Also biocontrol. The disease is spread 
by a psyllid, and so we are looking for more biocontrol, which 
is we find another insect that will kill the psyllid. And that 
is really the primary focus in California. California has not 
found the disease in any commercial groves yet. There have been 
a few backyards, but there has not been any commercial 
production affected so far. But if we can knock the psyllids 
down there with biocontrol, that is the goal.
    And another thing, particularly in Florida, as I am sure 
you are aware, people have abandoned orange groves, and when 
that happens host material remains, and then the disease really 
gets going. And so we have been working with the state on 
removing tress from abandoned groves. That removes host 
material and gives us a better chance.
    So we are doing lots of things to try to make it better for 
the producers in Florida.
    Ms. Graham. I really appreciate that because Florida is 
known for its citrus industry, and we need to be doing whatever 
we can to provide a remedy.
    And I am interested in California. You found the psyllid in 
private trees but not in the commercial trees. And if that is 
the case, how are you preventing it from transferring to the 
commercial groves?
    Mr. Shea. Well, it has been found in backyards. And if I 
just may say very quickly, that is a big challenge for us on 
the specialty crop and plant side versus the animal side. Not 
that many people have cattle in their backyards. In Florida and 
in California, everyone has a citrus tree in their backyard, so 
host material is sitting there. And Texas as well, I should 
add. So the material is there and it is easy to catch hold. The 
main thing that is going on in California is producers help, 
they actually treat their groves for the psyllid, to knock the 
psyllid down. So it is another one of these examples, we can do 
a part, the producer has to do a part, state has to do a part. 
So that is the primary focus in California now is psyllid 
control through a combination of biocontrol and application of 
chemicals by local producers.
    Ms. Graham. Well, thank you. I am from north Florida, which 
is not typically known as where the orange groves and the 
citrus groves are, but we are getting involved in the citrus 
industry, because if you are growing in a greenhouse, you can 
prevent the psyllid from entry. So I want to thank you, and I 
look forward to continuing to work with the USDA to eradicate 
the psyllid and do whatever we can for the citrus industry. It 
is so important to Florida, it is so important to our country. 
So thank you very much.
    I am out of time. I yield back the time I don't have, Mr. 
Chairman. Thank you.
    Mr. Davis. Thank you, Representative Graham.
    I would like to now recognize Chairman Austin Scott.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. And I 
appreciate the comment about the agricultural industry being 
profitable. Obviously, if it is not, then it won't be here, and 
some of our agencies maybe don't share that concern sometimes.
    One of the things that you have detected, and this is back 
in 2010, was the pest that is the cottonseed bug. You detected 
it in the Florida Keys. Can you give us an update on what has 
happened with the cottonseed bug?
    Mr. Shea. Okay. We have been able to handle that, but I 
would like Mr. El-Lissy to get into some detail about that, if 
he would.
    Mr. Austin Scott of Georgia. Okay.
    Mr. El-Lissy. The cottonseed bug was detected back in 2010, 
and since then, we have been working with the Florida 
Department of Agriculture and local officials in surveying and 
eradicating the pest. So far, we have been able to eradicate 
it, and we continue to monitor the population there, just to 
make sure that it is no longer there, and the eradication is 
still viable, and we have mitigated the problem that way.
    Mr. Austin Scott of Georgia. Thank you. And you mentioned 
the Florida Department of Agriculture. Could you speak further 
to the relationship between the research and extension at the 
state level with regard to the eradication of these diseases?
    Mr. El-Lissy. Absolutely. I think we are very fortunate 
that we continue to have a very strong relationship with the 
State Department of Agriculture in Florida, as well as the 
university and the research extension service. To give you a 
few examples of the collaborative work: Mr. Shea mentioned the 
Citrus HLB Program, one of the areas that is very, very 
important for us is the early detection of the disease. Through 
the collaborative work with the Agriculture Research Service in 
Florida, and the extension service, we have been able to train 
canines to detect HLB before the disease has been expressed on 
the tree itself, during the latency period, which we believe is 
going to be very important in managing the disease.
    The same is true for eradicating fruit fly outbreaks in 
Florida and other places. With their support, we have been able 
to eradicate the oriental fruit fly down in south Florida.
    Mr. Austin Scott of Georgia. I am down to a couple of 
minutes. If I could, the high-path avian influenza is a big 
deal to, obviously, our poultry producers in Georgia. What 
types of interagency efforts are there to track and monitor the 
diseases in the wild bird population, which is where, in many 
cases, it is introduced to the poultry industry?
    Mr. Shea. Congressman, I would like to ask Dr. Shere, who 
is not only our Chief Veterinary Officer but a poultry disease 
specialist, to talk about that.
    Dr. Shere. Thank you. As far as the interagency efforts, we 
work strongly with all of the states and with the industry in 
the area of high-path AI. It is very important that we have 
strong partnerships and strong understandings with them. We 
want to look at what the infrastructure is in each state and 
try to build that, and build around that. We work through a 
cooperative agreement process reinforcing, not only their 
resources, but that partnership. So we work strongly with each 
of the states, their Departments of Agriculture, and with the 
wildlife agencies within those states, the DNRs, also to help 
us with the tracking of this disease.
    We have tested, through a national tracking program and 
testing program, over 40,000 wild birds. We use that system as 
an early indication of the disease and a warning system for us.
    Mr. Austin Scott of Georgia. I am down to less than a 
minute. What are the biggest challenges with regard to tracking 
that disease?
    Dr. Shere. We often are asked where it is going to pop up 
next, and that is a tough call because this disease is 
transported, as you know. The outbreak in 2014 and 2015 was 
spread by wild bird populations.
    Mr. Austin Scott of Georgia. Yes.
    Dr. Shere. Then in Indiana, we feel like it was a resident 
low-path AI that was in the birds and then just changed into a 
high-path AI. We caught it early into a high-path version. So 
it was a resident low-path, and we have low-paths circulating 
in the wild birds. So the challenge is when is it going to 
change, and where is it going to change, and is it going to be 
in a poultry area that is going to get affected. So that is the 
challenge: tracking it from that standpoint.
    Mr. Austin Scott of Georgia. Well, thank you for your 
service. I am going to have to step out for another meeting, 
but I appreciate your service.
    Dr. Shere. Thank you.
    Mr. Newhouse [presiding.] Thank you, Mr. Scott.
    Mr. Costa from California.
    Mr. Costa. Thank you very much, Mr. Chairman. I gave a 
preview in my opening statement about the questions I wanted to 
ask all of you, and that is whether or not adequate safeguards 
are in place, and whether or not your agencies have adequate 
funding, and how we can better improve the robust monitoring 
programs that take place at, not only ports of entry of all 
kinds, but also air terminals and others where we have 
international travel that takes place.
    In California, again, to kind of make it local, we have the 
issues with citrus greening most recently, as you are aware, 
and also the high-path avian influenza, which is really a 
migratory bird disease that, as in the migration pattern as it 
is going from Canada to the U.S., to Mexico, landed in places 
where they have been able to provide the pathogens that have 
allowed it to be transmitted to domestic poultry operations.
    So I guess with those two examples in mind, can you please 
give us a snapshot on what you are doing and whether or not you 
have adequate resources to do it?
    Mr. Shea. If I may start, and then I will turn it over to 
Mr. Harriger for some more comments.
    I think we do have really good measures in place and 
resources in place on the plant side. I think the fact that we 
detected fruit flies 12 times this year, and were able to 
quickly respond to those and eradicate those, shows how good 
the detection systems are. Obviously, we are not----
    Mr. Costa. On that point, and this is a debate that has 
been going on for years, because I was a part of that effort 
back in the 1980s where we knocked down the Mediterranean fruit 
fly in the Bay Area, some argue that we never really knock it 
down, we never really eradicate it; that we simply make it more 
dormant and then it pops its head up somewhere else. Do you 
care to opine on that?
    Mr. Shea. We disagree with that. We believe that we are 
able to eradicate it, and that it is not endemic in California. 
And I would point out that we not only had Mediterranean fruit 
fly outbreaks, but oriental fruit fly outbreaks. So there are 
different flies being detected. So I don't think that it is a 
matter of them being dormant or endemic in California, it is 
just a constant threat because of the volume of traffic. And 
when I say traffic, it is not just import of food products, but 
people who often bring it with them.
    Mr. Costa. Now, I noted that in my comments. And it is not 
intentional, obviously, but it happens.
    Mr. Shea. I will ask Mr. Harriger if he would like to add 
to that.
    Mr. Harriger. Yes, thank you, sir.
    So we began an educational campaign. APHIS provides all of 
the training for all of our ag specialists and our CBP 
officers. So specifically for Asian citrus psyllid, we built a 
very robust training module that is easy to deliver, does not 
take a long time to get that information across, that covers 
epidemiology, the disease transmission, the nexus between the 
bug and the disease, everything that APHIS needs to provide our 
ag specialists, who are scientists and specialists, so that 
they understand, have a better concept of that risk. And then 
they take that information and associate that with the 
targeting and the incoming traffic, pouring through to see 
whether or not those individuals might have something of 
interest.
    Further, in San Francisco, we were able to train our canine 
cadre out there to hit on curry leaves. Curry leaves from some 
source countries is a host plant for Asian citrus psyllid as 
well. So it really assists in expanding the battery of the 
canines' capabilities to use that as that extra detection 
device.
    Mr. Costa. And what about migratory species that, I mean 
really fall in a different category, obviously? There are not 
ports of entry, these are part of the Pacific Flyway and they 
are just doing what is their natural migratory patterns. What 
tools do we have to combat those kinds of impacts?
    Mr. Shea. Of course, we can't really prevent them from 
arriving. What we need to be able to do though is find out very 
quickly if they are carrying any disease. And from year to 
year, that can change because avian influenza viruses can 
mutate from one form to another, so we have to maintain 
surveillance of wild birds in the Pacific Flyway to see if they 
are infected. And as Dr. Shere mentioned earlier, so far this 
year, it has been very good. The findings are great. We had 
over 40,000 wild birds tested and no avian influenza detected. 
But last year, there were birds detected with avian influenza. 
The best we can do with migratory birds is test them to give 
some indication of where they might be and where they might 
drop the disease.
    Mr. Costa. Well, thank you very much. Keep both 
Subcommittees updated as to what resources you may need. 
Obviously, this is an important issue, as I said in the outset, 
and it is something that we monitor all the time in 
California's breadbasket.
    Thank you so much.
    Mr. Newhouse. Thank you, Mr. Costa.
    I will recognize myself now for 5 minutes.
    I represent the State of Washington, and this is certainly 
a very big issue in our state as well. And I just want to thank 
you, Administrator Shea, as well as Mr. Harriger for being 
here, and all of our witnesses on the panel, especially our 
canine guest. Kind of brings a different kind of atmosphere. 
Maybe we should have canines here more often.
    But I would say that the average American, myself included, 
probably takes for granted some of the remarkable things that 
are done to protect our food supply and our agricultural 
industry from pests and diseases, so I just want to recognize 
the great work that you do. I am a former director of our 
Department of Agriculture, and sometimes I felt like I was the 
Little Dutch Boy with my finger in the dyke, which is, I know, 
sometimes how you feel as well. There are a lot of things 
trying to get in, and a lot of effort that we have to put forth 
to prevent that.
    Mr. Administrator, if I could ask you a question about some 
importation of fruit. In January of this year, APHIS published 
a systems approach for the importation of apples and pears from 
our EU member countries. One thing that I noticed was that 
Poland, which has never before imported apples to the U.S., was 
on that list. One of APHIS' most important missions, as you 
know, is to protect the U.S. from invasive species of pests and 
diseases. Could you tell us, have Polish apples and pears ever 
been subject to a full disease and pest management risk 
analysis, and if not, is there any plan to conduct that prior 
to the importation of Polish fruit? Will they be subject to 
U.S. phytosanitary rules for importation?
    Mr. Shea. Any fruit imported from any country will be 
subject to our phytosanitary requirements. We have not reached 
a final decision on that request.
    I would say that the European Union presents a specific 
challenge because we try to treat the European Union as one 
entity, and each country may still have slightly different pest 
and disease situations. So we are aware that there is concern 
in the apple industry. In fact, we just met with 
representatives of the apple industry a few weeks ago. We meet 
with every sector of agriculture annually to kind of touch 
base, make sure we are doing the right thing, and indeed, they 
brought this subject up. So I assure you today that we will 
take a hard look at Poland and the entire EU before we finalize 
any kind of regulation.
    Mr. Newhouse. I appreciate that. Thank you.
    Another question for you is on the notice of intent APHIS 
issued to prepare an environmental impact statement for 
revising biotech regulations. This notice seems to pose, I 
would characterize it as, somewhat vague definitions on the 
scope of the new regulations. They may be potentially including 
things like seedless watermelon, or even methods used in 
organic production. And that seems like it could be a very 
significant revision. But on the same hand, the President's 
budget only included a one percent funding increase for 
biotechnology regulatory services. So does APHIS plan to 
complete its revisions under this Administration, and if so, 
does the one percent reflect the scope of the expected changes?
    Mr. Shea. We certainly do hope to complete this within this 
Administration, but I would point out that we haven't made any 
final decisions. Indeed, the notice of intent laid out four 
possibilities. We have not chosen any one of the four 
possibilities. I know that there has been some concern that we 
were going to be regulating more things than we have in the 
past, and there may be some things that would fall under the 
regulation that did not before, but we think it is just as 
likely, probably more likely, that there are things that are 
currently regulated that would not be in the future. These 
regulations have been in place for almost 30 years. The entire 
industry has changed dramatically. So it could very well be 
that we are regulating things we don't need to spend time on, 
and there are some things we should spend some more time on. I 
think on balance, it is likely we will have either the same or 
even less regulatory work. So I think that the budget request 
is in line with that.
    Mr. Newhouse. Yes.
    Mr. Shea. I certainly regret that some folks believe that 
the notice of intent is an indication we intend to do a lot 
more regulation in biotechnology, because that is really not 
where we think we are headed. But again, I don't want to 
prejudge it because it is, indeed, still in the comment period.
    Mr. Newhouse. Yes. Well, thank you, Mr. Shea.
    And again, I appreciate all of our guests this morning, and 
thank you for your testimony on this important issue.
    And I would recognize Mr. Vela.
    Mr. Vela. Thank you.
    Mr. Shea, I have two questions for you. And I am very 
familiar with your agency's work on the Texas-Mexico border. 
And as you know, along the Rio Grande and on the California-
Arizona-New Mexico border as well, the border walls don't 
really help us fight disease. Right? And with respect to, 
whether it be boll weevil or citrus greening, or fruit fly or 
even fever tick, one of the things I am wondering about is, 
what are your thoughts in terms of efforts to fight disease on 
our side of the border versus the efforts of the Mexican 
Government to do so on its side?
    Mr. Shea. I think we have really good relationships with 
the Mexican Government in terms of agriculture. And they are 
indeed working on lots of pests and diseases. They are working 
to control tuberculosis, they are working to control boll 
weevil and fruit flies. Indeed, we are partners with Mexico in 
the Fruit Fly Program. The problem that they and we have run 
into is the violence on the Mexican side of the border has made 
it so we can't send our people over to do work the way we used 
to. And, indeed, we have Mexican nationals who work for us on 
the other side of the border who sometimes can't report to 
work. And so what that means is spraying doesn't take place for 
boll weevil as it should. Spraying doesn't take place for 
Mexican fruit fly as it should. So I don't think it is a lack 
of will from the Mexican Government so much as the very sad 
violence that is taking place there that is causing a lot of 
the problems, because there is, indeed, a commitment by our 
counterparts in Mexico to work on all of these issues, and we 
work very well with them.
    Mr. Vela. Yes, I read it almost exactly the same way. I 
think that sometimes what we miss up here is when we talk about 
border security issues like that, we tend to forget to focus on 
the issues of violence on the other side of the border, and 
what kind of effect it has on these very important issues that 
we are talking about today.
    The second question I have, what is the current status of 
our efforts to control fever tick?
    Mr. Shea. I am going to ask Dr. Shere, our Chief Veterinary 
Officer, to talk about cattle ticks, if he would like, please.
    Dr. Shere. Yes, thank you. As you know, cattle fever tick 
has found new hosts and a new ability to move. Currently, this 
year we have seen an expansion of the cattle fever tick 
problem. It is a ticky year. When it is wet and moist we see 
ticks come in waves, and from year to year; that can vary. What 
we have seen is with the Nilgai, and I don't know if you are 
familiar with the Nilgai. Hopefully you are.
    Mr. Vela. Yes. I represent the district where they 
eradicated, killed 200 of them.
    Dr. Shere. Okay, great. Well, what we are finding with 
those Nilgai is they have set up their own migration pattern, 
they migrate up the coast, and we have seen them move up the 
eastern coast along the Gulf of Mexico, and they bring the 
ticks with them. So they are bringing that tick with them. And 
that has expanded the quarantine zone in both areas.
    So we have seen an increase in the need to respond to that, 
increase in resource needs, increase in the quarantine zone. So 
the ticks are progressively moving on those animals.
    It becomes difficult when you have to control a migrating 
population such as whitetail deer or the Nilgai. If it were 
just cattle, and we were just dealing with the ranches, it 
would be fairly easy to come in, spray them on a regular basis, 
and take care of the ticks. We are investigating new methods to 
deal with them. In the event that we develop those methods, 
that is what will help us greatly, and one of those is perhaps, 
it is not a tick vaccine, but it is a tick treatment that 
infects the gut of the tick and the females lay fewer eggs. So 
instead of laying in the neighborhood of hundreds of thousands 
of eggs, they lay thousands of eggs, and you reduce the 
population through the use of that. Now, we haven't gotten that 
license yet, but we are working on a pilot study to try to make 
sure that we can perhaps utilize that.
    So there are new methods out there that we have to use and 
new techniques to control this, when just simply dipping and 
spraying isn't getting it done.
    Mr. Vela. Well, I would like to work further with you on 
that, as I have noticed over the past year, the quarantine is 
moving further and further to the north.
    I only have 15 seconds left, so I will make this short. Mr. 
Harriger, what I would like to work with you on is, about 6 
months ago I received a letter from about 12 of your agents who 
handle canines at the Gateway Bridge in Brownsville. I don't 
know if you are familiar with that issue. They had some 
concerns about the conditions in which those canines were kept, 
and we have been working with the agency and if we could just, 
moving forward, do what we can to expedite the fixing of the 
kennels there at the Gateway Bridge, and whatever else we can 
do to help, I would like to work with you on that as well.
    Mr. Harriger. Absolutely, Congressman. We look forward to 
working with you. Thank you.
    Mr. Vela. I yield back.
    Mr. Kelly [presiding.] The gentleman's time has expired. I 
now recognize Mr. Denham for 5 minutes.
    Mr. Denham. Thank you, Mr. Chairman.
    Mr. Shea, first of all, let me thank you for the work that 
you have done on avian influenza in California. California 
continues to face a number of different threats, but I know 
there has been some great work done on avian influenza.
    One of our other challenges: I have a lot of citrus and 
stone fruit crops in our area. We have had issues with citrus 
greening and plum pox virus. Those have been addressed in our 
area. Our concern is that Canada does not have the same 
eradication policies that we do. My question to you would be, 
are you working with our Canadian counterparts, and do you see 
future efforts there to address it before it comes to our area?
    Mr. Shea. Specifically with plum pox?
    Mr. Denham. Yes, please.
    Mr. Shea. Yes. We have been working very closely with them. 
I will ask Mr. El-Lissy to touch on that because he is part of 
the North American Plant Protection Organization that works 
closely with Canada. So, Osama, do you want to talk about that 
a little bit, with plum pox, please?
    Mr. El-Lissy. Right. Very good, thank you. Absolutely. We 
have been working with Canada on coordinating our efforts in 
eradicating the plum pox virus in New York and Ontario. So far, 
we have been surveying for PPV in California. We have not 
detected any PPV in California, so we are in good shape that 
way.
    With respect to stone fruit, we have been working with 
Mexico to ensure that we are able to continue to export stone 
fruit from California to Mexico without the overburden of 
inspection that Mexico had required in the past. And we are 
making very good progress there as well.
    Mr. Denham. Thank you. We have been having a number of 
discussions with the Ambassador on TPP. My concern and 
questions have been largely around the sanitary and 
phytosanitary standards. As you know, I am sure you are aware, 
at times our crops get held up in foreign ports over different 
issues. I would ask if you have seen the phytosanitary/sanitary 
piece of the TPP?
    Mr. Shea. Yes, we have been involved with that. I think 
there were 21 different sessions, and we were part of 17 of 
those sessions in negotiating the TPP. I would say something 
that is important about this is, many of the pests and diseases 
we see end up coming through smuggled goods or inadvertent 
transmission. We really don't find a lot of pests and diseases 
on legitimately certificated agricultural imports. So something 
like the TPP has the potential to legitimize trade and, 
therefore, come under our purview for inspection. A lot of what 
we find is, indeed, smuggled material, whether it is from Asia 
or other parts of the world, and that is where the pest and 
disease problem is, because the material will come in 
mismanifested, to use a nice word, mismanifested,  deliberately 
mismanifested, and a legitimate trade route like TPP might 
provide would actually be beneficial from that standpoint. But 
I also understand your concerns about what other countries do 
to us. And what we have tried to do is work very closely with 
them. We have people in three different countries, and last 
year alone, those people were able to get over $25 million 
worth of product released that had been held up for what we 
think were probably not really legitimate phytosanitary and 
sanitary reasons.
    So we continue to work on that issue and understand it.
    Mr. Denham. Thank you.
    And, Mr. Harriger, I mean citrus greening, the plum pox 
virus, the glassy-winged sharpshooter, have been a big issue in 
the past. What are the joint issues that are being resolved 
between agencies to tighten up these illegal movements that 
could bring these different pests in?
    Mr. Harriger. So every regulation that APHIS proposes 
through rulemaking comes over to our shop to take a chop on it, 
to discuss the ramifications, do an impact statement. So 
anything future down the road for legitimate trade, as Mr. Shea 
alluded to, we think we have a pretty good control on. We call 
that the known, and we know that that is coming, we anticipate 
that they will abide by the rule and regulation certification, 
et cetera, animal products and/or plant products. It is that 
unknown that we are more concerned about. It is the things that 
are mismanifested or they didn't quite characterize it as it 
was stated to be. That is where we think our targeting 
information is vital from the very, very get go, but that is 
fed by APHIS' Smuggling, Interdiction, and Trade Compliance, 
and their IES Group, their Investigative Enforcement Services, 
gives us key information on the back-end of things they have 
found already stateside, that we plug into our targeting layers 
so that we can try to pick that up and make a nexus to possibly 
some other conduits, and try to plug a hole in that and stop 
that from entering the United States.
    Mr. Denham. Thank you.
    Mr. Kelly. The gentleman's time has expired.
    I will now recognize myself for 5 minutes for questions.
    Mr. Administrator, first, thank you to all of the witnesses 
for being here, and thank you for the demonstration.
    Mr. Administrator, in 2010, APHIS detected the introduction 
of the cottonseed bug in the Florida Keys. Can you update the 
Committee on the status of this agricultural pest since its 
detection?
    Mr. Shea. Yes. We have been able to eradicate that 
entirely.
    Mr. Kelly. Very good. And to follow up on a different line 
of questions, how many market access requests by U.S. producers 
or companies are pending at APHIS currently?
    Mr. Shea. I don't have the exact number, but we are 
preparing a report that we will have ready to submit to you, 
and the Appropriations Committee as well, very soon that 
details all those numbers.
    Mr. Kelly. Absolutely. As a part of that also, we just 
would like to know the average amount of time it takes for a 
request to be processed, and the success rate of those that are 
processed. If you have any thoughts now, I would be glad to 
hear them, but if not, we will wait on the report.
    Mr. Shea. Yes, we will submit the report.
    Mr. Kelly. I would appreciate shedding a little more light 
on what happens to shipments once they pass, or a contaminant 
is detected, what happens to that shipment? Is it destroyed, 
are the contents treated and then brought on? Can you kind of 
talk about what we do when we detect?
    Mr. Shea. Yes, it depends on what it is. In some cases, we 
will re-export it back to the country it came from. Some cases 
it can go to a third country that might be willing to take it. 
In some cases it can be fumigated, treated, and any pest and 
disease problem mitigated and then enter. Or it can just be 
destroyed. So it depends on what kind of pest it is, and what 
the options are for that particular pest.
    Mr. Kelly. Thank you.
    And, Mr. Harriger, final question from me. In your 
testimony, you mentioned there are ports where there are no CBP 
agricultural specialists, but other CBP officers are cross-
trained to detect agricultural items of interest. Can you 
describe or talk a little more in-depth about how we cross-
train and how many are cross-trained, and if that works or not?
    Mr. Harriger. Absolutely, sir. So it begins at the Federal 
Law Enforcement Training Center down in Glynco, Georgia, where 
APHIS has assets there that provide over 24 hours of training 
as part of their regimen on precisely those threats that 
confront them; what they need to know as CBP officers. They are 
a law enforcement component, they are armed, they deal more 
urgently, with the admissibility issue, but they have to keep 
in mind, and do keep in mind, those threats posed to us from 
the agricultural sector. So they are taught to refer to an ag 
specialist those issues that are of concern, other than the 
very simplistic ones on the Mexican border, for instance, 
citrus is prohibited, they can pick that up in a booth when 
there is no ag specialist. In those ports with no ag 
specialists, they are taught to seize that commodity. In every 
one of those locations, it is a very, very low volume, what we 
refer to as a low-end agricultural port, we do not put assets 
of ag specialists because of their expertise, and there are 
only 2,400 of them, we want them at the ports like JFK that 
present that highest risk that APHIS has presented to us, 
whether it is in pathway from passenger or in the trade 
environment. Those ports of entry with no ag specialists have 
no legitimate trade entering that has anything of agricultural 
concern.
    So it is a combination of training that we get done at the 
academy, and then the follow-up training that we get from our 
agriculture specialists who are assigned those outlier ports, 
to be that point of contact for the port director and staff if 
they have any questions.
    Mr. Kelly. Thank you to all the witnesses.
    I yield back the balance of my time, and would like to make 
the closing remarks.
    First of all, I would just like to thank each and every one 
of you for your service to our great nation. I thank you for 
your time here testifying today, but mostly I thank you for a 
career of service to this great nation. Like Chairman Conaway 
said earlier, security and agriculture are linked at the hip. 
They are joined. They are Siamese twins. I think a nation that 
could sustain and defend itself will always endure whatever 
threats that we have. And you guys all play such an important 
role in ensuring that this country is safe from pests, from 
contaminants, and protecting our food sources and all those 
things. So thank you so much for what you do for that.
    And I just want to say a special thank you to our Customs 
officer for the demonstration today. And having gone through 
the Customs process through multiple deployments, it is so 
important what you do because we don't see the large scale of 
how many different ways there are to get contaminants into this 
nation, and you guys are responsible for being that guy who is 
plugging the hole with his finger, but you guys have to plug 
every single threat. And I thank you so much for your continued 
dedication to this nation, and to protect our citizens here in 
the United States.
    So with that said, under the rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional material and supplementary written 
responses from the witnesses to any questions posed by a 
Member.
    This joint hearing of the Subcommittee on Biotechnology, 
Horticulture, and Research, and the Subcommittee of Livestock 
and Foreign Agriculture is now adjourned.
    [Whereupon, at 11:28 a.m., the Subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    Submitted Statement by Wesley Bissett, D.V.M., Ph.D., Associate 
  Professor and Director, Texas A&M College of Veterinary Medicine & 
             Biomedical Sciences Veterinary Emergency Team
Infectious Disease Response: The Value of a College of Veterinary 
        Medicine Centric Approach
    Chairman Conaway, Ranking Member Peterson, and Members of the 
United States House of Representatives Committee on Agriculture.
    I am Dr. Wesley Bissett, Associate Professor and Director of the 
Texas A&M College of Veterinary Medicine & Biomedical Sciences' 
Veterinary Emergency Team. The Texas A&M Veterinary Emergency Team 
(VET) was founded in 2010 in response to the need for deployable 
veterinary medical resources that became evident in the aftermath of 
Hurricane Ike. The Texas A&M VET has developed into the largest and 
most sophisticated veterinary medical emergency response team in the 
country. The VET has acquired and developed emergency response 
resources and equipment valued in excess of $2 million and has deployed 
to multiple incidents within the State of Texas. Our deployments 
include the 2011 Bastrop Complex Wildfire, 2013 West, Texas fertilizer 
plant explosion, 2014 Dallas, Texas Ebola response, 2015 Memorial 
Weekend floods, and the 2015 Rowlett, Texas tornado. We have also 
deployed to multiple in-state small-scale search and rescue missions. 
In each of these, we have delivered veterinary medical capabilities to 
the scene of the incident and have been instrumental in delivering 
veterinary medical care to search and rescue dogs participating in the 
response and injured or ill resident animals impacted by the emergency 
or disaster.
    A key component of the Texas A&M VET capability is the inclusion of 
senior veterinary medical students from the Texas A&M College of 
Veterinary Medicine & Biomedical Sciences in our response efforts. 
Senior veterinary medical students have participated in all deployments 
of the Texas A&M VET with the exception of the 2014 Dallas, Texas Ebola 
response. Participation of these students in deployments provides them 
a foundation of community service and emergency preparedness and 
response.
    The Texas A&M VET also provides the nations only required clinical 
rotation in veterinary medical emergency preparedness and response and 
has done so since 2012. The educational approach used places 
instructors and students in jurisdictions for the purpose of developing 
preparedness plans designed to limit animal suffering and loss during 
times of disaster. This effort provides subject matter expertise to 
local jurisdictions and results in a ``Whole Community'' approach to 
emergency preparedness and response while preparing veterinary students 
to lead preparedness efforts in the communities they join after 
graduation. The Texas A&M VET will have educated in excess of 520 
veterinary medical students in this discipline by the end of the 2016 
academic year.
    The Texas A&M VET has recently proposed a pilot college of 
veterinary medicine centric approach to emergency response. Discussions 
have thus far focused on non-infectious disease response. I appreciate 
the United States House of Representatives Committee on Agriculture 
accepting my written statement on the benefits of expanding this 
approach to infectious disease response. As part of my statement, I 
will highlight the key benefits that a college of veterinary medicine 
centric approach will provide to our nation's ability to respond to 
infectious disease events that may potentially endanger animal 
agriculture.
    The likelihood of foreign animal and emerging diseases being 
introduced into our agricultural system is at a heightened state as a 
result of modern transportation systems and a global agricultural 
economy. In addition, our borders provide an ever-present risk of the 
introduction of harmful biological agents that pose the potential to 
deliver a devastating blow to our food producing systems. This 
increased risk is occurring at a time when fewer veterinarians are 
participating in the delivery of veterinary medical care to 
agricultural animals and Federal and state regulatory agencies charged 
with protecting our food systems, are dealing with ever-present 
budgetary constraints. The 2015 highly pathogenic avian influenza 
(HPAI) outbreak demonstrated how diseases tax existing response 
capabilities.
    The basis of this proposal is development of a pilot project 
focused on building Federal emergency response capabilities at five to 
seven colleges of veterinary medicine. This will allow development of a 
core group of responders trained to integrate under the regulatory 
agencies in efforts to limit the spread of and eliminate diseases that 
threaten our nation's food supply. The Texas A&M VET is a proven 
example of the value of this type of system.
    The 2014 Dallas, Texas Ebola incident did not threaten agricultural 
animals but did require trained responders to deal with a pet that was 
potentially exposed to the Ebola virus by its owner. The Texas A&M VET 
was able to provide responders that were trained and equipped to safely 
quarantine this animal. We were able to do so as a result of our 
efforts to develop an all-hazards response team and also because of the 
myriad of expertise present at academic institutions.
    Transposing this approach on the response that will be required 
when large populations of food-producing animals are threatened by 
disease demonstrates the strength of this proposal. The Texas A&M VET 
alone can provide approximately 50 responders from our college of 
veterinary medicine trained in the use of required personal protective 
equipment and with the ability to handle agricultural species. 
Personnel are also proficient in working under the incident management 
system and are capable of providing regulatory agencies with a cadre of 
trained professionals capable of performing the requirements of an 
infectious disease response. When this capability is expanded across 
multiple colleges of veterinary medicine a substantial increase in 
Federal response capacity is possible.
    An additional benefit in a college of veterinary medicine-centric 
approach is an increase in agricultural literacy. Our food-producing 
systems are tremendous examples of American efficiency and 
productivity. Fewer and fewer people are producing ever-increasing 
amounts of food products. This increased efficiency and productivity 
provides a distinct advantage but does also introduce a disadvantage. 
As fewer people are required to feed our nation and the world it 
results in fewer people understanding what goes into producing a gallon 
of milk or pound of ground beef. Our nation is reaching a point where 
the separation from an agrarian society is reaching a generational 
basis. This ultimately results in our nation having fewer people 
trained and able to respond to agricultural emergencies. A college of 
veterinary medicine-centric approach to infectious disease response 
will not reverse this trend but it can build a foundation of trained 
professionals within the veterinary medical community. The Texas A&M 
VET approach of including senior veterinary medical students in our 
response efforts helps ensure that our graduates understand modern food 
production systems and will enhance the capability to assist in 
building the resiliency of our food producing systems.
    In addition to the efforts described above, the Texas A&M VET is 
also serving as a housing agency for multiple veterinary medical 
reserve corps units in our state. This approach allows veterinarians to 
join the Texas A&M VET during emergency responses. We provide training 
to insure that these responders are prepared to deal with disaster 
environments and capable to complete assigned missions. This approach 
combined with increased agricultural literacy and training in the use 
of personal protective equipment and infectious disease response in our 
graduating students has the potential to provide an even greater 
response capability that will help insure that infectious diseases do 
not threaten our nation's ability to provide an inexpensive and safe 
food supply.
    A final, and potentially the most advantageous benefit of a college 
of veterinary medicine-centric approach is the potential to expand this 
into an academic institute-centric approach. Academic institutions 
house the width and breadth of intellectual expertise capable of 
enhancing a science-based approach to infectious disease response that 
more closely matches the speed of commerce. They provide the ability to 
augment and enhance the surveillance and epidemiologic efforts housed 
in regulatory agencies providing a more robust response capacity across 
the spectrum of disciplines required to most efficiently contain, 
control, and eliminate diseases threatening our nation's agricultural 
infrastructure. As an example, the Texas A&M University System is home 
to many areas of focus that have been largely, an untapped resource. 
Our colleges of veterinary medicine, agriculture, and public health as 
well as infectious disease centers and institutes, and agricultural and 
engineering extension services, when directly involved in response 
efforts, provide a broad range of expertise that will be helpful to 
regulatory agencies during infectious disease response operations. Our 
combined efforts would decrease the negative impacts of these 
emergencies to producers, agriculture communities and the U.S. economy 
while also ensuring that the U.S. food production systems maintain 
their preeminent role in the global agricultural community.
    I appreciate your acceptance of this written statement and stand 
ready to provide additional information if so requested.
            Sincerely,

Wesley Bissett, D.V.M., Ph.D.,
Associate Professor & Director, Texas A&M Veterinary Emergency Team.
                          Submitted Questions
Response from Kevin Harriger, Executive Director, Agriculture Programs 
        and Trade Liaison, Office of Field Operations, U.S. Customs and 
        Border Protection, U.S. Department of Homeland Security
Questions Submitted by Hon. Ann Kirkpatrick, a Representative in 
        Congress from Arizona
    Question 1. Does CBP plan to hire the 631 additional CBP 
Agricultural Specialist as called for in your agency's own Workload 
Staff Model?
    Answer. The Workload Staff Model (WSM) and Agriculture Resource 
Allocation Model (AgRAM) are decision-support tools used by management 
to ensure staffing resources are aligned with the existing threat 
environments, while maximizing cost efficiencies. The models 
incorporate the most recent years' workload data to determine staffing 
requirements and consider factors for future facility enhancements and 
projected volume growth in cross-border commercial and passenger 
traffic. They do not necessarily align with available funding. The gap 
in CBP Agriculture Specialist staffing will be partially mitigated 
through the expansion of the agriculture-related Business 
Transformation Initiatives (BTI) like the expansion of Enforcement Link 
Mobile Operations-Cargo (ELMO-c) initiative to outfit CBP Agriculture 
Specialists with mobile devices to release more cargo in a shorter 
amount of time since they do not have to return to the office. Based on 
the anticipated fee collection projections used to build the FY 2017 
President's Budget, CBP intends to hire 145 Agriculture Specialists 
during Fiscal Year (FY) 2017.

    Question 1a. If so, when will this hiring take place?
    Answer. Hiring for all frontline positions is ongoing and CBP is 
actively recruiting for CBP Officers and Border Patrol Agents. While we 
have issued some announcements for Agriculture Specialists and have a 
number of candidates in the pipeline, we do not currently have any 
vacancies. The projected 145 Agriculture Specialists that CBP intends 
to hire are contingent upon an anticipated increase in Agricultural 
Quarantine and Inspection (AQI) user fee collection revenue, allowing 
CBP to recover a larger portion of its eligible AQI costs and to cease 
supplementing those activities with appropriated resources. Certain AQI 
fee rates were adjusted, effective December 2015, through a United 
States Department of Agriculture regulation. Based on the anticipated 
fee collection projections used to build the FY 2017 President's 
Budget, CBP intends to hire 145 Agriculture Specialists during FY 2017.

    Question 2. How does CBP propose to fund the hiring of 631 
additional CBP Agriculture Specialists?
    Answer. The Agricultural Quarantine and Inspection (AQI) user fee 
rate increases that became effective December 28, 2015, are currently 
anticipated to provide full cost recovery for providing AQI services in 
the activities with fees. Updated projections for AQI collections in FY 
2017 are included in the AgRAM model. This model projects that the 
healthy U.S. economy will generate increased AQI collections to fully 
reimburse CBP's costs for these AQI activities and allow CBP to 
rededicate the appropriate resources presently supplementing that 
activity to allow for the hiring of an additional 145 CBP Agriculture 
Specialists. The FY 2017 Congressional Justification does reflect this 
updated projection for total anticipated CBP AQI fee collections and 
prior year carryover of $617.099 million for FY 2017, but does not 
explicitly list an increase to the number of positions supported by the 
AQI fees.
    As reflected in the AgRAM, this increase in expected collections 
will reduce the CBP Agriculture Specialist requirements gap to only 174 
specialists. This assumes the enactment of the COBRA and IUF 
legislative proposals supported by the FY 2017 President's Budget 
request.
    The gap of 631 in CBP Agriculture Specialist staffing will be 
partially mitigated through the expansion of agriculture related BTIs 
like the expansion of Enforcement Link Mobile Operations-Cargo (ELMO-c) 
initiative to outfit CBP Agriculture Specialists with mobile devices. 
The mobile devices allow CBP Agriculture Specialists to release more 
cargo in a shorter amount of time since they do not have to return to 
the office. Full deployment of mobile devices to all CBP Agriculture 
Specialists is expected to be completed by the end of 2016. Also, The 
Agriculture Pest Exclusion Coordinator Specialist (APECs) program was 
expanded during FY 2015. This innovative program expands upon the 
scientific expertise of our CBP Agriculture Specialist cadre, 
specifically those who actively seek to increase and exercise their 
Cargo Release Authority (CRA) and take on the additional responsibility 
of facilitating trade through the identification of less significant, 
non-reportable plant pests and organisms. The APECs program, coupled 
with CRA, allows cargo that is found contaminated with a less 
significant, non-reportable plant pest to proceed more quickly and 
efficiently through the POE. The expansion of the APECs program to 
Nogales, Arizona, Otay Mesa, California, and Laredo, Texas, POEs has 
facilitated the release of approximately 600 agriculture shipments a 
month. Collectively, that equates to about one hundred staff hours per 
month saved which is in turn redirected to high-risk agricultural exams 
and activities within the ports. This program will continue to be 
expanded through FY 2017.

                                  <all>
</pre></body></html>
